App. 1
*** FOR PUBLICATION IN WEST’S HAWAI‘I
REPORTS AND PACIFIC REPORTER ***
IN THE SUPREME COURT OF THE
STATE OF HAWAI‘I.
– – –o0o– – –
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT
AGENCY, STATE OF HAWAI‘I,
Respondents-Appellees.
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SCAP-16-0000837
APPEAL FROM THE FAMILY COURT
OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
OCTOBER 4, 2018
RECKTENWALD, C.J., NAKAYAMA, McKENNA,
POLLACK, AND WILSON, JJ.1

1

Justice Nakayama, with whom Chief Justice Recktenwald
joins, writes the opinion of the court except as to Part III(B). Justice McKenna, with whom Justice Pollack and Justice Wilson join,
joins the opinion of the court except as to Part III(B), and writes
the opinion of the court with respect to the issue addressed in Part
III(B) of Justice Nakayama’s opinion.

App. 2
OPINION OF THE COURT EXCEPT AS TO PART
III(B) AND OPINION AS TO PART III(B) BY NAKAYAMA, J., IN WHICH RECKTENWALD, C.J., JOINS
The Uniform Parentage Act (UPA) was adopted by
the Hawai‘i State Legislature in 1975 to “provide substantive legal equality for all children regardless of the
marital status of their parents.” H. Stand. Comm. Rep.
No. 190, in 1975 House Journal, at 1019. To that end,
the UPA presumes legal paternity in certain circumstances. One such presumption of paternity is the marital presumption, which presumes that a man is the
natural father of a child when he and the child’s
mother are married to each other and the child is born
during the marriage. The issue in this case is whether
this presumption similarly applies in determining
whether a woman married to the child’s natural
mother is the parent of that child.
Petitioner-Appellant LC sought a divorce from her
wife Respondent-Appellee MG in the Family Court of
the First Circuit (family court) shortly after a child was
born to MG through an artificial insemination procedure. While LC and MG were legally married at the
time of the child’s birth, LC is not biologically related
to the child. After the child was born, LC subsequently
sought an order in the family court to disestablish paternity. The family court denied LC’s request, determining that under the UPA and Hawaii’s Marriage
Equality Act (MEA), LC was the child’s legal parent.
LC appealed, and the case was transferred to this court
from the Intermediate Court of Appeals.

App. 3
For the reasons discussed below, we first hold that
both the UPA and the MEA demonstrate that the
UPA’s marital presumption of paternity applies
equally to both men and women. Therefore, because LC
and MG were legally married at the time that the child
was born, LC is presumed to be the legal mother of the
child. Second, we hold that LC did not rebut the presumption of parentage.
Accordingly, we conclude that LC is the legal parent of the child, and affirm the family court’s November 1, 2016 Decision and Order denying her request to
disestablish paternity.
I.

BACKGROUND

LC and MG first met in 2010, and began a relationship in 2011. At that time, LC was a student at the
Naval Academy in Annapolis, Maryland and MG lived
in Silver Spring, Maryland. Also during that time, LC
and MG began to discuss the possibility of having a
child together. On October, 13, 2013, LC and MG were
legally married in Washington, D.C. The day after, both
parties visited Shady Grove Fertility Reproductive Science Center (Shady Grove) in Rockville, Maryland.
There, they both signed Shady Grove’s “Ovulation Induction, Monitoring and/or Insemination Treatment”
form and a “Consent to Accept Donated Sperm from
Anonymous Donor.” The consent form read in part,
I/We, [MG] (“Sperm Recipient”) and [LC]
(“Recipient Partner”, if applicable) each
hereby jointly and individually elect to utilize

App. 4
donor sperm of an anonymous donor recruited
by a Sperm Bank (“Donor”) which may be
used as part of my/our assisted reproductive
technology treatments. . . .
....
I have read the “Information Packet for
Use of Donor Sperm” as well as this Consent
document in its entirety and have had ample
time to reach my/our decision free from pressure and coercion, and agree to proceed with
my/our participation in the use of donor
sperm as stated above.
The parties decided that MG should carry their first
child, because she was older and LC was currently
serving in the military.
The parties relocated to O‘ahu, Hawai‘i pursuant
to LC’s military orders and assignment in October
2014. At that time, MG was not employed, and LC financially supported the couple.
In December 2014, LC and MG jointly attended an
appointment at the Fertility Institute of Hawai‘i (FIH),
met with a physician’s assistant, and toured the facility.
In January 2015, LC deployed overseas and MG
remained on O‘ahu. While LC was deployed, she continued to communicate with MG regarding MG’s plans
to become pregnant. On February 23, 2015, MG sent a
text message to LC:

App. 5
I do have to tell you something . . . I’m so
worried about IUI [intrauterine insemination] . . . I have been checking the PO box
every single day waiting for my refund and
nothing! My menses is here and I’m supposed
to order out [sic] vial on Monday morning. I’m
so upset and depressed bc I don’t have the extra money right now . . .
The next day, MG texted LC that “it looks like everything is all good. I start clomid[2] tonight and come
back in a week. And I’m so happy that I do have ‘time’
to order our vial!” LC responded, “I’m glad everything
went ok.”
On February 25, 2015, LC (still overseas) and MG
discussed their relationship through text messages.
When MG asked whether LC was having second
thoughts about having a child, LC responded that she
“want[ed] to make sure we are truly good before we
start a family,” and “want[ed] a child more than anything but [wanted] them to have parents that adore
each other as well as them.” MG asked LC whether she
was “backing out.” LC responded, “What are you talking about backing out? I have always wanted a child[.]”
LC stated that she was “concerned about us. I want a
loving family that respects each other[.]” The text message exchange ended when MG responded:
[MG:] The way (from our previous convos),
I’d stres [sic] taking the pills for he [sic] past
few days per doctor’s orders
2

Clomid is a fertility drug.

App. 6
[MG:] I have been taking the pills since
Monday to prepare[.]
[MG:]

I forgot to tell you that.

[MG:]

Night!

The next day, LC responded, “K @ pills.”
On March 2, 2015, a cryobank sent a sperm sample to FIH and billed it to MG. After an ultrasound appointment, MG texted LC about the results of the
ultrasound, and stated that FIH would “call [her] later
[that day] to let [her] know if we can get IUI tomorrow
or Wednesday.” After several other texts were sent by
MG, LC responded, “Hi honey. Ok. [Talk to you] after
my flight. I love you[.]”
On March 4, 2015, MG signed FIH’s “Consent for
Intrauterine Insemination.” Because LC was overseas,
she did not sign the consent form. The IUI procedure
also took place on March 4, 2015.
On March 19, 2015, MG informed LC via text message that she was pregnant. Five hours later, LC responded, “I’sa pregnant!! I love you baby!!! [ . . . ] [Good
morning] honey that’s great news to awaken to! [ . . . ]
I get to rub your tummy and feel our baby[.]” When MG
asked LC when they should tell people about the pregnancy, LC responded, “You tell me when. I’m telling my
mom and brother whenever we do[.]”
Around Mother’s Day 2015, while LC was still deployed, she wrote a “Future Mother’s Day Card” to MG.
Enclosed in the card was a note to “The Future

App. 7
Mother” from “The Future Momma/Papa.” The note
also contained a poem which referenced MG’s pregnancy and stated that “[y]ou will cry, you will smile,
you will look into our child[’]s eyes, and we will love
you through it all.” (Emphasis in original.) The note
was signed by LC and after the signature, LC further
wrote “I will always be here for our family!” Similarly,
on June 8, 2015, LC addressed a postcard to “[MG] &
Future Son/Daughter,” which stated that LC had gotten MG “a spa kit to let [her] pamper [herself ] and for
my future child I bought you the softest/coolest Iceland
bear I could find. I love you both! Hope you enjoy your
gifts!” (Formatting altered.)
When LC returned to Hawai‘i in September 2015,
she attended both an ultrasound appointment and a
lamaze class with MG.
On October 7, 2015, LC filed a motion for divorce
from MG in the family court. On November 11, 2015,
MG gave birth to the child at Castle Medical Center on
O‘ahu. The child’s birth certificate lists MG as the
“mother” and LC as the “co-parent”. At the time that
the child was born, LC and MG were not legally divorced; divorce proceedings were pending.
A. Family Court Trial
On January 11, 2016, LC sought an order in the
family court to disestablish parentage.3 LC also submitted a declaration with her petition that stated that
3

The Honorable Matthew J. Viola presided.

App. 8
she “did not sign any documents stating that she consented to the alleged in vitro fertilization that lead [sic]
to the pregnancy,” that the child born to MG was not
hers, “genetically or otherwise,” and that she “never
held [the] child out to be her own.” (Emphasis in original).
At trial, MG first called two witnesses to testify as
to LC’s involvement in MG’s medical appointments on
O‘ahu. First, Robin Washowsky (Washowsky), the business manager of FIH, testified about MG’s medical records and LC’s consent to MG’s IUI procedure. On crossexamination, after being asked to confirm that there is
a line for a partner’s initials on the “Consent to Receive
Cryopreserved Sperm” form, Washowsky was asked
how the absence of a spouse’s signature on a consent
form would affect the patient’s procedure.4 Washowsky
responded that “[i]f there’s a spouse here, we can have
them sign. But in the absence of a spouse, we would
still go through with the procedure.” Washowsky further testified that there were no signatures or initials
from LC anywhere in MG’s FIH medical file. Nevertheless, Washowsky testified on redirect examination that
if FIH received a withdrawal of consent to an artificial
insemination procedure, the clinic would have a duty
to inform the patient of that withdrawal. Washowsky
further stated that there was no evidence in MG’s

4

As noted, LC did not sign the “Consent for Intrauterine Insemination” that MG signed on March 4, 2015 before MG received
the sperm at FIH.

App. 9
medical record that MG was notified of any withdrawal
of consent.
Dr. Emilie Stickley (Dr. Stickley), an OB/GYN at
Pali Women’s Health Center (PWHC), also testified. Dr.
Stickley testified that LC attended a July 2015 medical
appointment via video conference with MG and herself. Regarding the topics discussed during the appointment, Dr. Stickley stated that neither LC nor MG
expressed to her that they no longer wanted to go
through with the pregnancy. After the July 2015 appointment, Dr. Stickley did not recall any further contact with LC.
MG also testified. On direct examination, when
asked whether she received any documents from FIH
before the birth of the child indicating that LC was trying to withdraw consent, MG responded “no.” However,
when asked on cross-examination whether she
emailed LC copies of the consent to receive sperm that
she herself initialed and signed, MG also testified that
she did not.
On the second day of trial, LC testified. LC first
testified that she had no involvement in using FIH or
choosing a sperm donor. While LC admitted that she
and MG discussed the possibility that MG become
pregnant by assisted reproduction, LC also testified
that she told MG “several times” beginning in March
2014 that she did not want to go forward with assisted
reproduction. LC specifically testified:
And before we left – before I left in January
[2015], for our anniversary we had this big

App. 10
argument where [MG] said that we should not
have children, and I agreed. And then she
brought it back up while I was on deployment,
and I specifically called her and told her this
was not the right time as well as – she hung
up, and that’s how the whole text message
chain started, where again [ . . . ] I stated that
this was not the right time for us to – to have
a child.
LC also believed that her text to MG, which read, “I
want to make sure that we are truly good before we
start a family” and the following exchange, “specifically” demonstrated that LC did not want to go forward
with the pregnancy.
LC also explained that when she received MG’s
texts about taking Clomid pills, she knew that because
she was eight thousand miles away, there “was nothing
[she could] do” to stop MG from taking them. Therefore, LC testified that she just responded “K at pills.”
LC also stated that it was her understanding that MG
was taking the pills “to get ready for the process.” LC
later testified that when MG sent the text telling her
that she was taking Clomid pills, she “called [MG] immediately and told her to – to pause.” LC stated that
this was the second time she told MG to stop taking
Clomid.
Similarly, regarding MG’s “I’m pregnant” text and
LC’s response, LC testified that she felt there was
nothing she could do to stop MG’s pregnancy:

App. 11
[LC’S COUNSEL:] What did you mean
by “our baby”? What’s going through your
mind when that’s happening?
[. . . . ]
[LC:] Oh I believe it was in – so March.
So again, after [MG] had already done the IUI
and it’s confirmed that she is pregnant – I
mean, like, at this point there’s absolutely
nothing that I knew at that time that I can do.
[ . . . ] So I mean, I’m stuck, and she’s my wife.
So I – I guess it’s “our baby.”
[LC’S COUNSEL:]

I see.

So did you ever tell your mom and brother
that – that you were having a baby with –
with [MG] or that [MG’s] having a baby for
you?
[LC:] I – I told my mother and brother
that despite my wishes, [MG] is pregnant.
With respect to the postcard to “[MG] & Future
Son/Daughter,” LC first denied that she had ever sent
the postcard. Instead, LC testified that the postcard,
along with the spa kit, was actually in a box of belongings that remained in LC’s possession until she returned from deployment. LC testified that she only
gave MG these items when she returned home. Specifically, LC stated:
[LC:] So this is – again, this was part of
my journal, and there were more entries in my
journal of me just expressing everything. [ . . . ]
I’ve always wanted a child, and I always

App. 12
thought it would be with [MG]. So I’m just expressing everything that I want to do, that I
want to actually be able to do. Like – like, she’s
pregnant, and if it were mine, like, I would be
doing all these things. [ . . . ]
So I’m just, in this point, trying to figure
out – like, hey, this is what I want and, like,
you are going to be so loved, and I’m going to
get you the best thing from all the places of
the world that I will ever possibly go. [ . . . ] So
I grabbed – so bears. I grabbed toiletries. I
grabbed as much stuff as I could from this
place as well as other places in the world that
I went.
THE COURT: Can I interrupt for a second. I just want to clarify something. [ . . . ]
[Y]our testimony is that you were referring to
not the child that [MG] was pregnant with,
but possibly a future child you’d have with
[MG]?
[LC:]

Yes.

THE COURT: At that point, if I understood your testimony correctly – your testimony was that you had told [MG], “Don’t go
through with this procedure till I’m back.”
[LC:]

Yes.

THE COURT: And she – your testimony
is that she ignored your – your statements
and went ahead and got pregnant anyway.
[...]
[LC]:

Yes.

App. 13
[. . . . ]
THE COURT: So can you – can you explain to me why you’re still considering having a child with [MG] in the future?
[LC:] Again, like, this is – this is my
wife, and I was trying to reconcile, like things
with her. [ . . . ] And at this point in time, I’m
like, okay, like, yeah, she’s done all this bad
stuff, but [ . . . ] maybe there’s a chance that
we can fix this and everything will be all right,
even despite all of this. But more things happened after this date that was just – like, “You
care nothing about me, and it’s only about
you.” So yeah, this – this isn’t going to work.
Regarding the ultrasound appointment and the
lamaze class that she attended with MG after she returned from deployment, LC testified that because MG
did not have a car, she needed to take her. Specifically,
because MG requested a ride to her lamaze class, LC
testified that she drove her to the class and accompanied her inside.
Finally, LC attempted to enter into evidence two
faxes she sent to Shady Grove and FIH withdrawing
consent to an IUI.5 The fax to Shady Grove is dated
January 1, 2014 and LC testified that it was written
and sent to the facility a couple of weeks after LC and
MG returned from their honeymoon that same month.
5

The family court did not admit the withdrawal fax to FIH
into evidence for lack of foundation. The family court admitted
the withdrawal fax to Shady Grove (Exhibit KK) into evidence by
stipulation.

App. 14
According to the date stamp on the fax, Shady Grove
received the fax on December 9, 2015 (after the child
was born).
B. The Family Court Decision and Order
On November 1, 2016, the family court entered a
decision and order concluding that a legal parent/child
relationship existed between LC and the child. The
family court therefore denied LC’s request for an order
that she be disestablished as legal parent of the child.
In its order, the family court began by describing
what it believed to be the fundamental issue in this
case: “Does a legal parent/child relationship exist between Petitioner and the Child?” In order to answer
that question, the family court looked to the UPA,
which lists several circumstances in which a man
would presumptively be the “natural father” of a child.
Hawai‘i Revised Statutes (HRS) § 584-4(a) (2006).6
6

HRS § 584-4(a) (2006) provides in relevant part:
Presumption of paternity. (a) A man is presumed
to be the natural father of a child if:
(1) He and the child’s natural mother are or
have been married to each other and the
child is born during the marriage, or within
three hundred days after the marriage is terminated by death, annulment, declaration of
invalidity, or divorce, or after a decree of separation is entered by a court;
(2) Before the child’s birth, he and the child’s
natural mother have attempted to marry
each other by a marriage solemnized in apparent compliance with the law, although

App. 15
Furthermore, the family court noted that HRS § 58421 (2006) provides that in actions to declare a mother
and child relationship, “[i]nsofar as practicable, the
provisions of [the UPA] applicable to the father and
child relationship,” i.e. provisions like HRS § 584-4(a),
“shall apply.”
The family court also noted that Hawaii’s MEA intended that “there be no legal distinction between
same-sex married couples and opposite-sex married
couples with respect to marriage[.]”7

7

the attempted marriage is or could be declared invalid . . . ;
(3) After the child’s birth, he and the child’s natural mother have married, or attempted to
marry, each other by a marriage solemnized
in apparent compliance with the law, although the attempted marriage is or could be
declared invalid . . . ;
(4) While the child is under the age of majority,
he receives the child into his home and
openly holds out the child as his natural
child;
(5) Pursuant to section 584-11, he submits to
court ordered genetic testing and the results,
as stated in a report prepared by the testing
laboratory, do not exclude the possibility of
his paternity of the child . . . ;
(6) A voluntary, written acknowledgment of paternity of the child signed by him under oath
is filed with the department of health[.]
HRS § 572-1.8 (Supp. 2014) provides:
Interpretation of terminology to be genderneutral. When necessary to implement the rights,
benefits, protections, and responsibilities of spouses

App. 16
Applying these statutory provisions to this case,
the family court first determined that HRS § 5844(a)(1) presumes that a man is the natural father of a
child if “he and the child’s natural mother are or have
been married to each other and the child is born during
the marriage.” Applying that provision in a genderneutral fashion as required by HRS § 584-21, the family court determined that because LC and MG, the
child’s natural mother, were married to each other at
the time the child was born, LC is presumed to be the
child’s legal parent.8
The family court then explained that under HRS
§ 584-4(b) (2006), the presumption of parentage was
rebuttable:
A presumption under this section may be rebutted in an appropriate action only by clear
and convincing evidence. If two or more presumptions arise which conflict with each
other, the presumption which on the facts is
under the laws of this State, all gender-specific terminology, such as “husband”, “wife”, “widow”, “widower”, or similar terms, shall be construed in a
gender-neutral manner. This interpretation shall
apply to all sources of law, including statutes, administrative rules, court decisions, common law, or
any other source of law.
However, the family court’s decision does not actually rely on
the MEA to conclude that the marital presumption of parentage
applied to LC.
8
However, the family court also concluded that HRS § 5844(a) (4) “d[id] not create a presumption of a parent-child relationship between [LC] and [MG], because [LC] did [not] receive the
Child into her home and hold out the Child as her natural child.”

App. 17
founded on the weightier considerations of
policy and logic controls[.]
The family court noted that “[i]n the context of a child
conceived through artificial insemination by donor
during a marriage, the presumption of legal parentage
incorporates a rebuttable presumption of consent to
the artificial insemination. Only clear and convincing
evidence can rebut the presumption of consent and
therefore legal parentage.” For support, the family
court noted that several other jurisdictions imposed a
presumption of consent to artificial insemination by
the spouse of a woman who gives birth to a child by
that procedure.
Therefore, in order for LC to rebut the presumption that she was the legal parent of the child in this
case, the family court explained that LC would need to
prove, by clear and convincing evidence, that she did
not consent to MG undergoing the IUI procedure that
resulted in her pregnancy and the birth of the child.
The family court then made several credibility determinations regarding LC’s actions and testimony. It
found that:
68.

MG’s Exhibit KK is a letter dated January 1, 2014 from [LC] to Shady Grove.
The letter states that [LC] withdraws
her consent to IUI, IVF or any other
procedure performed on MG and that
any child born to [MG] without [LC’s]
consent “will not be my child or responsibility in any way.”

App. 18
69.

There is no credible evidence that [LC]
sent the letter marked as Ex. KK to
Shady Grove prior to the birth of the
Child.

70.

There is no credible evidence that [LC]
gave a copy of the letter marked as Ex.
KK to [MG] or informed her of its contents prior to the birth of the Child.

71.

[MG] did not become aware of the letter
marked as Ex. KK or its content until
after the birth of the Child.

....
74.

There is no credible evidence that prior
to [MG] undergoing the IUI procedure
on March 4, 2015 or prior to the Child’s
birth that [LC] informed FIH that she
did not consent to or that she objected
to [MG] undergoing an IUI or any other
artificial insemination procedure to become pregnant.

75.

Prior to March 4, 2015, [LC] did not inform [MG] that she objected to and/or
did not consent to [MG] undergoing an
IUI or any other artificial insemination
procedure at FIH.

76.

[LC’s] testimony that prior to [MG] undergoing the IUI artificial insemination procedure on March 4, 2015 she
clearly verbally informed [MG] that she
objected to [MG’s] attempt to get pregnant at that time was not credible.

App. 19
77.

On November 11, 2015, [MG] gave
birth to the Child at Castle Medical
Center.

78.

[MG] is the Child’s natural mother.

79.

Both [LC] and [MG] are listed as the
Child’s parents on his birth certificate.
[LC] did not consent to her being listed
as a parent on the birth certificate.

Accordingly, the family court determined:

9

108.

[LC] did not meet her burden of proving
by clear and convincing evidence that
she did not consent to [MG] undergoing
the artificial insemination procedure
that resulted in her pregnancy and the
birth of the Child. [LC] therefore has
failed to rebut the presumption under
HRS § 584-4(a)(1) that she is a legal
parent of the Child.

109.

Accordingly, the court finds and concludes that a legal parent/child relationship exists between [LC] and the
Child, i.e., that [LC] is a legal parent of
the Child, and therefore [LC’s] request
for an order that she be disestablished
as a legal parent of the Child is denied.[9]

The family court subsequently made related findings of fact
and conclusions of law regarding custody, visitation, child support, and attorneys’ fees and costs.

App. 20
C. Appellate Proceedings
LC filed a notice of appeal on November 28, 2016.10
In her opening brief, LC raised two points of error,
which we construe to present three arguments. First,
LC argued that the family court erred when it decided
that LC was the legal parent of the child even when
she had no genetic link with the child. Second, LC argued that the family court erred when it decided that
the marital presumption of parentage, HRS § 5844(a)(1), applied to LC. And third, LC contended that
even if the marital presumption applied, the family
court erred when it decided that she did not rebut the
presumption.
MG filed an answering brief requesting that this
court affirm the family court’s determination that LC
is the legal parent of the child. MG contended that the
UPA’s “marital presumption of parentage applies to
anyone – whether male or female – who is married to
a woman who gives birth,” and that LC “failed to produce clear and convincing evidence that she did not
consent to the conception of the child.”
The State of Hawai‘i filed an amicus brief which
adopted MG’s position with respect to the marital presumption of parentage, i.e., that “the spouse of a
woman who delivers a child must be deemed the
10

Respondent-Appellee Child Support Enforcement Agency
(CSEA) was made a “nominal appellee” in this case. See Hawai‘i
Rules of Appellate Procedure (HRAP) 2.1(b). As a nominal appellee, the CSEA “assert[ed] no interest in the outcome of the appeal.”

App. 21
presumptive legal parent of the child pursuant to HRS
§ 584-4(a)(1) (the “marital presumption”), regardless of
any genetic link to the child.”11
On August 9, 2017 LC filed an application for
transfer to this court, which was granted.
II.

STANDARDS OF REVIEW

A. Statutory Interpretation
“The interpretation of a statute is a question of
law reviewable de novo.” In re Doe, 95 Hawai‘i 183, 190,
20 P.3d 616, 623 (2001) (citations and ellipses omitted).
This court’s statutory construction is guided by established rules:
When construing a statute, our foremost obligation is to ascertain and give effect to the intention of the legislature, which is obtained
primarily from the language contained in the
statute itself. And we must read statutory language in the context of the entire statute and
construe it in a manner consistent with its
purpose.
Id. at 191, 20 P.3d at 624 (quoting Gray v. Admin. Dir.
of the Court, 84 Hawai‘i 138, 144, 931 P.2d 580, 586
(1997)).
It is a cardinal rule of statutory construction
that courts are bound, if rational and
11

The State did not take any position on whether LC failed
to show by clear and convincing evidence that she did not consent
to MG’s pregnancy.

App. 22
practicable, to give effect to all parts of a statute, and that no clause, sentence, or word
shall be construed as superfluous, void, or insignificant if a construction can be legitimately found which will give force to and
preserve all the words of the statute.
County of Kaua‘i v. Hanalei River Holdings, Ltd., 139
Hawai‘i 511, 526, 394 P.3d 741, 756 (2017) (quoting Camara v. Agsalud, 67 Haw. 212, 215-16, 685 P.2d 794,
797 (1984)).
B. Family Court Decisions
Generally, the “family court possesses wide discretion in making its decisions and those decisions will
not be set aside unless there is a manifest abuse of discretion.” In re Doe, 95 Hawai‘i at 189, 20 P.3d at 622
(citing In Interest of Doe, 84 Hawai‘i 41, 46, 928 P.2d
883, 888 (1996)). “Under the abuse of discretion standard of review, the family court’s decision will not be disturbed unless the family court disregarded rules or
principles of law or practice to the substantial detriment of a party litigant[, and its] decision clearly exceed[ed] the bounds of reason.” In Interest of Doe, 84
Hawai‘i at 46, 928 P.2d at 888 (alterations in original).
C. Findings of Fact and Conclusions of Law
The family court’s findings of fact are reviewed on
appeal under the “clearly erroneous” standard. Fisher
v. Fisher, 111 Hawai‘i 41, 46, 137 P.3d 355, 360 (2006).

App. 23
A [finding of fact] is clearly erroneous when
(1) the record lacks substantial evidence to
support the finding, or (2) despite substantial
evidence in support of the finding, the appellate court is nonetheless left with a definite
and firm conviction that a mistake has been
made. “Substantial evidence” is credible evidence which is of sufficient quality and probative value to enable a person of reasonable
caution to support a conclusion.
Id.
“The family court’s [conclusions of law] are reviewed on appeal de novo, under the right/wrong
standard.” Id. (citing In re Doe, 95 Hawai‘i at 190, 20
P.3d at 623). Conclusions of law are “not binding upon
an appellate court and are freely reviewable for their
correctness.” Id. (citing In re Doe, 95 Hawai‘i at 190, 20
P.3d at 623).
D. Credibility of Witnesses
“[I]t is well-settled that an appellate court will not
pass upon issues dependent upon the credibility of witnesses and the weight of the evidence; this is the province of the trier of fact.” In re Doe, 95 Hawai‘i at 190,
20 P.3d at 623 (quoting State v. Jenkins, 93 Hawai‘i 87,
101, 997 P.2d 13, 27 (2000)).
III.

DISCUSSION

On appeal, LC alleges that the family court erred
in 1) denying LC’s petition to disestablish parentage

App. 24
because the UPA “requires there to be a genetic link”
between LC and the child; 2) deciding that a legal
parent-child relationship existed between LC and the
child, because the statutory marriage presumption
does not apply; and 3) even if the marriage presumption applies, deciding that LC did not rebut the presumption.
LC states in her opening brief that “all this case
really comes down to is whether [LC] may be deemed
to be the Child’s legal parent simply because these two
women were married when the Child was conceived
through [IUI] and born.” The answer to this question
is, however, only half of the analysis. If the marital presumption of paternity applies to LC, then we must also
determine whether LC rebutted that presumption.
Both questions present issues of first impression for
this court.
For the reasons stated below, we hold that the
UPA’s marital presumption of paternity equally applies to women in same-sex marriages. Because it is
undisputed that LC was married to MG at the time
that the child was born, she is presumed to be the legal
parent of the child. We further conclude that LC did
not rebut the presumption of parentage.
A. The marital presumption of paternity applies to LC.
LC argues that there are two reasons why the
UPA’s presumption of paternity cannot apply to her.
First, LC argues that the UPA requires a genetic link

App. 25
in order to establish a legal parent-child relationship,
and therefore it is impossible for LC to be the “father”
of the child.12 Second, LC contends that the MEA was
not intended to broaden the scope of the UPA to apply
it to spouses in same-sex marriages.
The language and purpose of the UPA and the
MEA require us to reject these arguments. First, the
UPA does not require a genetic or biological connection
to establish a legal parent-child relationship. Second,
the MEA requires that every gender-specific statutory
provision of law regarding marriage be interpreted in
a gender-neutral manner.
1. The UPA does not require a biological
connection to establish a legal parentchild relationship.
Both the language and the purpose of the UPA indicate that a genetic or biological connection is not required for a legal parent-child relationship to exist.
The UPA’s statutory language indicates that legal parentage may arise even if there is no biological connection to the child. The UPA’s presumption of paternity
provision, HRS § 584-4(a), describes six different ways
in which a person is presumed to be the legal parent of
12

LC appears to make this argument twice in her opening
brief. In her first point of error, LC argues that because the UPA
requires a genetic link between someone like her and the child,
the UPA cannot apply to her. In her second point of error, LC argues that the UPA’s presumption of paternity “[h]inges on ‘Paternity’ and Genetics.” We construe her assertions to raise the same
argument.

App. 26
a child.13 But only one, HRS § 584-4(a)(5) (court-ordered genetic testing) is plainly based on biology. The
others, such as written acknowledgment of parentage,
consent to be the parent on a child’s birth certificate,
and the presumption at issue here – marriage to the
child’s natural mother – are not. Similarly, the UPA’s
list of evidence relating to paternity in HRS § 584-12
is not limited to evidence of a biological connection to
the child.14 Evidence may also include “[a] voluntary,

13

See supra note 6.
HRS § 584-12 (2006) provides a non-exhaustive list of evidence relating to paternity:
Evidence relating to paternity. Evidence relating to paternity may include:
(1) Evidence of sexual intercourse between the
mother and the alleged father at any possible
time of conception;
(2) An expert’s opinion concerning the statistical
probability of the alleged father’s paternity
based upon the duration of the mother’s pregnancy;
(3) Genetic test results, including blood test results, weighted in accordance with evidence, if
available, of the statistical probability of the alleged father’s paternity;
(4) Medical or anthropological evidence relating to
the alleged father’s paternity of the child based
on tests performed by experts. If a man has
been identified as a possible father of the child,
the court may, and upon request of a party
shall, require the child, the mother, and the
man to submit to appropriate tests;
(5) A voluntary, written acknowledgment of paternity;
14

App. 27
written acknowledgment of paternity” (HRS § 58412(5)) or “all other evidence relevant to the issue of
paternity” (HRS § 584-12(7)). This indicates that the
legal parent determination does not turn on whether
the person has any biological connection to the child.
Second, this court has previously cited the purpose
of the UPA to hold that legal parentage does not require a biological connection to the child. In holding
that a mother was estopped from filing a paternity action against the child’s biological father after a divorce
decree declared another man (her ex-husband) to be
the legal father of the child, this court noted that even
though the defendant was the biological father, the
UPA did not require that a child’s legal father be his or
her biological one. Doe v. Doe, 99 Hawai‘i 1, 7-8, 52 P.3d
255, 261-62 (2002). Instead, we said that the UPA was
meant “to ensure that every child, to the extent possible, has an identifiable legal father. Although this goal
will usually overlap with the desire of a child to know
the identity of his or her biological father, the two are
not always the same.” Id. at 8, 52 P.3d at 262 (emphasis

(6)

(7)

Bills for pregnancy and childbirth, including
medical insurance premiums covering this period and genetic testing, without the need for
foundation testimony or other proof of authenticity or accuracy, and these bills shall constitute prima facie evidence of amounts incurred
for such services or for testing on behalf of the
child; and
All other evidence relevant to the issue of paternity of the child.

App. 28
added).15 Similarly, in Inoue v. Inoue, the ICA held that
a mother was estopped from challenging the legal status of the child’s presumptive father, even when it was
established that he was not the “birth” father. 118 Hawai‘i 86, 94, 185 P.3d 834, 843 (App. 2008), cert. denied,
118 Hawai‘i 194, 186 P.3d 629 (2008).
Therefore, LC is simply incorrect when she contends that the UPA requires a biological connection in
order for a person to be presumed the legal parent of a
child. To the contrary, the statutory language and the
purpose of the UPA indicate that presumptions of paternity are not restricted to persons that share a biological or genetic link with the child.
Finally, the UPA further suggests that, despite the
gender-specific language in HRS § 584-4(a), the presumptions of paternity equally apply in determining
the existence or nonexistence of a mother-child relationship. HRS § 584-21 states that in actions “to determine the existence or nonexistence of a mother and
child relationship[, i]nsofar as practicable, the provisions of [the UPA] applicable to the father and child
relationship shall apply.” We conclude that it would be
practicable to apply the provisions of HRS 584-4(a) to
the mother and child relationship because, as discussed above, a biological connection is not necessary
15

In arguing that the UPA requires some “genetics threshold” in order to determine the legal parent of a child, LC cites the
dissent in Doe, which instead argued that the UPA’s purpose was
to ensure “that every child be assured of some legal relationship
to his or her natural or biological father.” 99 Hawai‘i at 24, 52
P.3d at 278 (Acoba, J., dissenting) (emphasis in original).

App. 29
to establish a presumption of parentage. Therefore,
HRS § 584-21 itself suggests that the presumptions of
paternity in HRS § 584-4(a) similarly apply when determining whether a woman is the legal parent of a
child.
2. The MEA intended to construe every
gender-specific statutory provision of law
regarding marriage in a gender-neutral
manner.
Even if the language of the UPA were not enough
to convince us that the statutory presumptions of paternity apply to both men and women, the MEA leaves
no doubt that the marital presumption must equally
apply to women in same-sex marriages. The Legislature adopted the MEA in 2013 to “recognize marriages
between individuals of the same sex in the State of Hawai‘i.” H. Stand. Comm. Rep. No. 4, in 2013 House Journal, at 189. In so doing, the Legislature wanted to
ensure that any interpretation of marriage terminology be gender-neutral. The MEA specifically provides,
Interpretation of terminology to be gender-neutral. When necessary to implement
the rights, benefits, protections, and responsibilities of spouses under the laws of this State,
all gender-specific terminology, such as “husband”, “wife”, “widow”, “widower”, or similar
terms, shall be construed in a gender-neutral
manner. This interpretation shall apply to all
sources
of
law,
including
statutes,

App. 30
administrative rules, court decisions, common
law, or any other source of law.
HRS § 572-1.8 (Supp. 2014) (emphases added).
The gender-neutral provision speaks for itself: all
laws regarding the rights and responsibilities of
spouses must be interpreted in a gender-neutral manner.16 The marital presumption of parentage is a
“source of law” regarding marriage, and therefore it
must be construed in a gender-neutral manner
pursuant to HRS § 572-1.8.17 Once we apply the
16

Furthermore, legislative history of the MEA reveals that
the Legislature intended that “all rights, benefits, protections,
and responsibilities of parentage derived from a marriage relationship under state law shall apply equally to all married persons regardless of gender[.]” See H. Stand. Comm. Rep. No. 4, in
2013 House Journal, at 189 (emphasis added).
It appears that this provision was not included in the final
version of the statute (and only the more general “gender-neutral
provision” of HRS § 572-1.8 remained) because the House Standing Committee believed that the “language relating to the genderneutral application of marriage-derived parentage rights, benefits, protections, and responsibilities [was] superfluous.” H.
Stand. Comm. Rep. No. 4, in 2013 House Journal, at 192.
17
This interpretation is in conformity with at least one other
jurisdiction that has a similarly-worded marriage equality act.
See Wendy G-M. v. Erin G-M., 985 N.Y.S.2d 845, 860 (N.Y. Sup.
Ct. 2014) (“[T]he MEA mandates that [all laws] are gender neutral with respect to all the legal benefits, obligations, etc. arising
from marriage. In [a previous case, the Appellate Division] predicated the husband’s parental status on the fact of marriage, without regard to the husband’s biological connection to the child or to
his fertility in general. To impose the presumption of consent to
[artificial insemination] for couples in a heterosexual marriage,
but not for those in a same-sex one . . . would reverse the genderneutral approach to New York’s families canonized in the MEA.”).

App. 31
gender-neutral provision of the MEA to the UPA’s marital presumption of paternity, HRS § 584-4(a) reads:
“[a] [person] is presumed to be the natural [parent] of
a child if: (1) [The person] and the child’s natural
mother are or have been married to each other and the
child is born during the marriage, or within three hundred days after the marriage is terminated[.]”
In arguing that the marital presumption of paternity cannot apply to her, LC contends that applying the
MEA’s gender-neutral provision to the UPA would unfairly discriminate against women attempting to disprove legal parentage. This argument is unavailing.
LC examines HRS § 584-12 (“evidence relating to paternity”) and argues that if we replace every instance
of the word “father” with “mother” in that provision,
only three of the seven listed types of evidence could be
used by a woman to rebut a presumption of parentage,
while a man would still be entitled to use all seven.
Because some avenues of relief in HRS § 584-12 are
closed to a woman, LC argues that applying the MEA
to the UPA would actually discriminate against a
woman attempting to disprove parentage. But LC ignores the catch-all basis in HRS § 584-12(7), i.e. “[a]ll
other evidence relevant to the issue of paternity of the
child.” This basis leads us to conclude that any difference in the number of methods available to women and
men to prove parentage are irrelevant, because HRS
§ 584-12(7) explicitly permits the use of any relevant
evidence to prove (or disprove) parentage.

App. 32
To conclude, Hawaii’s UPA does not require a biological or genetic link in order to establish a parentchild relationship. To require such a connection would
be contrary to the language and the purpose of the
UPA. Additionally, the MEA’s “gender-neutral interpretation” provision also requires, when necessary to
implement a right or responsibility of a spouse, that all
gender-specific terminology be construed in a genderneutral manner. See HRS § 572-1.8. We therefore hold
that the marital presumption of parentage applies
equally to women in same-sex marriages.18 Because it
is undisputed that LC and MG were married at the
time that the child was born, LC is presumed to be the
legal parent of the child.
B. LC did not rebut the presumption of parentage by clear and convincing evidence.
LC next argues that even if she is presumed to be
the legal parent of the child, she “met her burden to
rebut the presumption by clear and convincing evidence,” and therefore concludes that the family court
18

While we need not address MG’s additional constitutional
argument, see DW Aina Le’a Dev., LLC v. Bridge Aina Le’a, LLC.,
134 Hawai‘i 187, 217-18, 339 P.3d 685, 715-16 (2014), at least one
other jurisdiction has recently held that not applying the marital
presumption of parentage to same-sex spouses violates the Fourteenth Amendment to the United States Constitution. See
McLaughlin v. Jones in and for County of Pima, 401 P.3d 492, 498
(Ariz. 2017) (“The marital paternity presumption is a benefit of
marriage, and following [Pavan v. Smith, 137 S. Ct. 2075 (2017)
and Obergefell v. Hodges, 135 S. Ct. 2584 (2015)] the state cannot
deny same-sex spouses the same benefits afforded opposite-sex
spouses.”).

App. 33
erred in denying her petition for disestablishment of
parentage. LC notes that
the totality of the factual circumstances that
existed here do not warrant finding the existence of a parent-child relationship between
LC and the Child because LC did not consent
to the [IUI] procedure, did not participate in
the conception or birth of the Child, was not
present when the Child was born, did not give
her name to the Child . . . , and has never
acted as co-parent of the [C]hild.
MG counters that LC “fail[ed] to show that the
Family Court was clearly erroneous in its key finding:
she ‘did not meet her burden of proving by clear and
convincing evidence that she did not consent to [MG]
undergoing the artificial insemination procedure that
resulted in her pregnancy and the birth of the Child.’ ”
(Second alteration in original.) MG argues that “there
was a lengthy, documented history of joint action by LC
and MG that both predated and postdated [the child’s]
conception, all evidencing LC’s consistent consent.”
Based on the record of this case, I conclude that
the family court did not err in concluding that LC did
not prove, by clear and convincing evidence, that she
did not consent to MG undergoing an artificial insemination procedure that resulted in the birth of the child.

App. 34
1. In cases of artificial insemination, one
way to rebut the presumption of parentage is to demonstrate, by clear and convincing evidence, lack of consent to the
artificial insemination procedure.
Once the presumption of paternity has been established, the UPA also provides that it may be rebutted
by clear and convincing evidence:
A presumption under this section may be
rebutted in an appropriate action only by
clear and convincing evidence. If two or more
presumptions arise which conflict with each
other, the presumption which on the facts is
founded on the weightier considerations of
policy and logic controls. The presumption is
rebutted by a court decree establishing paternity of the child by another man.
HRS § 584-4(b) (2006).
Both parties agree that one way in which a party
may rebut the presumption of parentage is to demonstrate, by clear and convincing evidence, that he or she
did not consent to the spouse’s artificial insemination
procedure, and operated under that assumption in the
family court and on appeal. Neither party challenges
the family court’s conclusion of law that “[i]n the context of a child conceived through artificial insemination by donor during a marriage, the presumption of
legal parentage incorporates a rebuttable presumption
of consent to the artificial insemination.”

App. 35
However, the Majority holds that a spouse cannot
rebut the marital presumption of parentage through
demonstrating by clear and convincing evidence a lack
of consent to the artificial insemination procedure that
led to the birth of the child. Majority at 1. To the extent
that this position was not argued or briefed by the parties at any point in these proceedings, the Majority errs
in raising sua sponte the validity of this method of rebuttal on appeal. Cox v. Cox, 138 Hawai‘i 476, 491, 382
P.3d 288, 303 (2016) (Recktenwald, C.J., dissenting)
(“We need not and should not sua sponte address an
issue that was never raised or disputed by the parties
at any point.” (emphasis in original)). Moreover, as I
interpret the statutory language of the UPA, I conclude
that the UPA does not bar a party from attempting to
rebut the presumption of parentage in an artificial insemination case by proving that he or she did not consent to the artificial insemination procedure.
Accordingly, I respectfully dissent from the Majority’s decision to hold sua sponte that a spouse may not
rebut the presumption of parentage by demonstrating
lack of consent to an artificial insemination procedure.
a. The plain language of HRS § 584-4(b)
does not prevent a presumptive parent from rebutting the presumption
by demonstrating lack of consent to
an artificial insemination procedure.
If this issue were properly raised, I would agree
with the Majority that evaluating whether a certain

App. 36
method of rebuttal is permitted begins with the language of HRS § 584-4(b) itself. Majority at 3. While it
is true that HRS § 584-4(b) does not provide us with
much guidance as to how a presumption of parentage
under HRS § 584-4(a) may be rebutted, it broadly provides that “[a] presumption under this section may be
rebutted in an appropriate action only by clear and
convincing evidence.” Allowing a presumptive parent
to rebut the presumption of parentage in a birth by artificial insemination by demonstrating, by clear and
convincing evidence, that he or she did not consent to
the artificial insemination procedure does not conflict
with the plain language of HRS § 584-4(b).
The Majority, however, contends that the Legislature’s decision to remove the Uniform Parentage Act’s
(1973) artificial insemination provision from the Hawai‘i UPA proves that the Legislature rejected the use
of evidence of non-consent to an artificial insemination
procedure as a means to rebut a presumption of parentage. Majority at 8 n. 5. I respectfully disagree.
Section 5 of the Uniform Parentage Act (1973) provided a means to establish parentage in cases of artificial insemination.19 Specifically, the provision stated
19

Uniform Parentage Act section 5 (Unif. Law Comm’n 1973)
provided in relevant part,
(a) If, under the supervision of a licensed physician and with the consent of her husband, a wife is inseminated artificially with semen donated by a man
not her husband, the husband is treated in law as if he
were the natural father of a child thereby conceived.
The husband’s consent must be in writing and signed
by him and his wife. The physician shall certify their

App. 37
that if a husband consented in writing to his wife’s artificial insemination procedure, he would be treated as
the natural father of the child conceived by that procedure. Unif. Parentage Act section 5 (1973). The Legislature expressly removed section 5 from the bill that
eventually became our UPA. See H. Stand. Comm. Rep.
No. 190, in 1975 House Journal, at 1019.
From this removal, the Majority concludes that
the Legislature “specifically rejected a requirement of
consent to artificial insemination for a husband to be
recognized as the father of his wife’s child conceived
through artificial insemination.” Majority at 8 n.5. But
because there is no evidence in the legislative history
explaining why the artificial insemination provision
was not adopted, we can only speculate as to the reasons for its removal.20

signatures and the date of the insemination, and file
the husband’s consent with the [State Department of
Health], where it shall be kept confidential and in a
sealed file. However, the physician’s failure to do so
does not affect the father and child relationship.
(Alteration in original.)
20
For example, the Legislature may have thought that section 5’s formal consent procedures to establish paternity, i.e. “the
husband’s consent must be in writing and signed by him and his
wife,” were unnecessarily restrictive and against public policy,
and thus deleted it from the bill. See Laura WW. v. Peter WW.,
856 N.Y.S.2d 258, 261-62 (2008) (stating that even when New
York’s artificial insemination statute could not establish husband’s paternity because he did not consent in writing, “equity
and reason require a finding that an individual who participated
in and consented to [an artificial insemination procedure] to bring

App. 38
Moreover, even if the Majority were correct to assume that the removal of section 5 signaled an intent
to reject a requirement of consent to artificial insemination to become a legal parent of the child, it does not
follow that the Legislature also wished to bar a presumptive parent from rebutting the presumption by
demonstrating lack of consent to the artificial insemination procedure. As the Majority points out, section 5
provided another means to establish parentage in artificial insemination situations, and “was in any event
not intended to provide a method of rebutting parentage.” Majority at 11. Therefore, the removal of this provision does not inherently indicate an intent to bar a
method to rebut the presumption of parentage. Moreover, HRS § 584-4(b) itself does not contain any limiting language, and to the contrary, states broadly that
“[a] presumption under [HRS § 584-4(a)] may be rebutted in an appropriate action only by clear and convincing evidence.”
Because the omission of section 5 from the UPA
does not conclusively demonstrate an intent to bar presumptive parents from attempting to rebut the presumption by demonstrating lack of consent to an
artificial insemination procedure, I turn, as the parties
did, to the “evidence relating to paternity” provision of
a child into the world can be deemed the legal parent of the resulting child”).
This does not necessarily mean that the Legislature meant to
entirely bar a spouse’s consent to the artificial insemination procedure as a means to establish parentage. And this would not
mean that the Legislature meant to entirely bar non-consent as a
means to rebut the presumption of parentage.

App. 39
HRS § 584-12 for further guidance. HRS § 584-12(7)
provides that evidence related to paternity may include “[a]ll other evidence relevant to the issue of paternity of the child.” Evidence of non-consent to an
artificial insemination procedure is relevant to the issue of parentage, so HRS § 584-12(7) would thus allow
evidence of non-consent to be introduced.
This leads me to conclude that HRS §§ 584-4(b)
and 584-12(7) would permit a presumptive parent,
whether a man or a woman (see HRS § 584-21), to
prove, by clear and convincing evidence, lack of consent
to the artificial insemination procedure as a means to
rebut a presumption of parentage.
While the Majority acknowledges that the marital
presumption of parentage under HRS § 584-4(a)(1) is
rebuttable in certain circumstances, Majority at 4, it is
difficult to see how the Majority’s approved methods of
rebuttal could apply in the situation here. First, the
Majority notes that the presumption “can be rebutted
by another HRS § 584-4(a) presumption of parentage
if the other presumption ‘is founded on the weightier
considerations of policy and logic.’ ” Majority at 4 (citing HRS § 584-4(b)). But because only one presumption exists here, this ground cannot be used to rebut
the presumption of parentage in this case.
The Majority also suggests that evidence of the existence of another common law “parent,” i.e., a “de
facto,” “psychological,” or “intended” parent, or evidence that disestablishment of parentage is in the best

App. 40
interests of the child, might perhaps rebut the marital
presumption of parentage. Majority at 14 n.8.
But in my view, these methods of rebuttal also do
not provide a person in this situation with a meaningful way to rebut the presumption of parentage. First,
in the case of another “de facto” parent, HRS § 5844(a)(4) already presumes parentage if, “[w]hile the
child is under the age of majority, [the person] receives
the child into [the person’s] home and openly holds out
the child as his [or her] natural child.” In that situation, HRS § 584-4(b) instructs that the presumption
“founded on the weightier considerations of policy and
logic controls.” But as just noted, this method cannot
apply in situations, like here, where only one presumption in favor of one individual arises. Second, the Majority already appears to have held that permitting a
spouse to rebut a presumption of parentage based on
lack of consent to an artificial insemination procedure
“does not factor in the best interests of the child.” Majority at 18-19.
Where the language of HRS § 584-4(b) does not
bar evidence of non-consent to an artificial insemination procedure to rebut a presumption of parentage,
and where the Legislature’s decision to remove a
means to establish parentage does not clearly indicate
a rejection of a means to rebut a presumption of parentage, I believe the Majority errs when it concludes
that the UPA bars evidence of lack of consent to an artificial insemination procedure as a means to rebut a
presumption of parentage. This is especially the case
when the Majority provides no other meaningful way

App. 41
in which to rebut the marital presumption of parentage in a case involving an artificial insemination procedure.21
b. The Legislature’s decision to impose
a high burden of proof on any presumptive parent attempting to rebut
the presumption of parentage considers the best interests of the child.
Amongst the many policy arguments the Majority
employs to reject the parties’ assumption that evidence
of non-consent to an artificial insemination procedure
could rebut the marital presumption of parentage, the
Majority suggests that such a method of rebuttal
would not be in the best interests of the child. Majority
at 18-19. I respectfully disagree. Because the Legislature decided to impose a “clear and convincing” standard of proof on any presumptive parent attempting to
rebut a presumption of parentage, this high burden

21

While the Legislature might not have made “a distinction
regarding the means by which a parentage presumption can be
rebutted based on how a child is brought into being,” Majority at
14 n. 7, issues of consent in situations where sexual intercourse
results in the birth of a child can be evaluated differently under
the UPA.
In the event that a spouse wishes to disestablish parentage
of a child born by sexual intercourse, a court in that situation may
rely on genetic testing to determine paternity, and in some situations, must order genetic testing to determine paternity. HRS
§ 584-13(c) (2006). Genetic testing procedures are effectively unavailable in artificial insemination cases where the presumptive
parent is not biologically related to the child.

App. 42
addresses the Majority’s concerns regarding the best
interests of the child.
The “clear and convincing” standard of proof is defined as an
intermediate standard of proof greater than a
preponderance of the evidence. . . . It is that
degree of proof which will produce in the mind
of the trier of fact a firm belief or conviction as
to the allegations sought to be established,
and requires the existence of a fact be highly
probable.
Kekona v. Abastillas, 113 Hawai‘i 174, 180, 150 P.3d
823, 829 (2006) (citations omitted). As this court stated
in Kekona, a clear and convincing standard of proof is
“required to sustain claims which have serious social
consequences or harsh or far reaching effects on individuals. . . .” Id. at 181, 150 P.3d at 830. In these circumstances, the lower “ ‘preponderance of the evidence’
[standard] has been expressly disapproved as an insufficient measure of the proof required.” Id. (citing Iddings v. Mee-Lee, 82 Hawai‘i 1, 14, 919 P.2d 263, 276
(1996)).
By imposing a clear and convincing standard of
proof here, the Legislature determined that it would
protect the best interests of the child by making it “difficult” for presumptive parents to rebut the presumption of parentage. See Unif. Parentage Act § 4 cmt.
(1973) (“In accordance with current law in most states
relating to the rebuttal of a presumption of ‘legitimacy’, the presumption is difficult to rebut in that

App. 43
proof must be made by ‘clear and convincing evidence.’ ”). Accordingly, an equivalent burden on the
presumptive parent in an artificial insemination case
to demonstrate that he or she did not consent to the
artificial insemination procedure similarly considers
the best interests of the child.
This position is shared by other jurisdictions
which have concluded, even in the absence of an artificial insemination provision, that placing a high burden
on a spouse to demonstrate that he or she did not consent to the artificial insemination procedure ensures
that the best interests of the child are considered. For
example, in K.S. v. G.S., 440 A.2d 64, 66 (N.J. Super. Ct.
Ch. Div. 1981), the New Jersey court concluded that,
even in the absence of a statutory artificial insemination provision, “[p]ublic policy considerations seeking
to prevent children born as a result of [artificial insemination] procedures from becoming public charges . . .
require that a presumption of consent exist and that a
strong burden be placed on one seeking to rebut the
presumption.” Id. at 68.
Similarly, in In re Baby Doe, 353 S.E.2d 877, 878
(S.C. 1987), the South Carolina Supreme Court also examined spousal consent to an artificial insemination
procedure in the absence of a statutory provision. It
first looked to other jurisdictions and noted that
“[a]lmost exclusively, courts which have addressed [issues of artificial insemination] have assigned paternal
responsibility to the husband based on conduct evidencing his consent to the artificial insemination.” Id.
Accordingly, the South Carolina Supreme Court “[held]

App. 44
that a husband who consents for his wife to conceive a
child through artificial insemination, with the understanding that the child will be treated as their own, is
the legal father of the child born as a result of the artificial insemination[.]” Id. These cases, while not binding on this court, indicate that imposing a high burden
on a presumptive parent in an artificial insemination
case to prove, by clear and convincing evidence, that he
or she did not consent to the artificial insemination
procedure more closely adheres to the statutory language and intent of HRS § 584-4(b).22
HRS § 584-4(b) provides that a presumptive parent must be allowed an opportunity to rebut the presumption of parentage. Nothing in the UPA’s statutory
language nor in the legislative history indicates to me
that a presumptive parent in a birth by artificial insemination is barred from presenting evidence that he
or she did not consent to the artificial insemination
procedure to rebut the presumption. Moreover, the Majority does not provide any meaningful way to rebut
the marital presumption where only one presumption
22

This position does not conflict with our opinion in Doe. I
generally agree that HRS Chapter 584 was adopted “to ensure
that every child, to the extent possible, has an identifiable legal
father.” Doe, 99 Hawai‘i at 8, 52 P.3d at 262 (emphasis added).
The language of HRS § 584-4(b) mirrors that concern by permitting a spouse to rebut the presumption of parentage “only by clear
and convincing evidence.”
Indeed, no court of which I am aware has actually concluded
that a spouse rebutted the presumption of parentage by demonstrating lack of consent to an artificial insemination procedure.
See Section III(B)(2) infra.

App. 45
arises, and where an artificial insemination procedure
leads to the birth of a child. This effectively makes a
rebuttable presumption irrebuttable, and cannot be
what the Legislature intended.23
While I would not have addressed this issue in the
first instance, for all of these reasons, I would hold that
one way that a presumptive parent may rebut the marital presumption of parentage in cases of artificial insemination is to demonstrate, by clear and convincing
evidence, that he or she did not consent to the spouse’s
artificial insemination procedure.
2. LC did not demonstrate by clear and
convincing evidence that she did not
consent to MG’s artificial insemination
procedure.
Because nothing in the statutory language of the
UPA bars a presumptive parent in an artificial insemination case from attempting to rebut the presumption
of parentage by proving that he or she did not consent
to the artificial insemination procedure, I also address
whether LC met her necessary burden of proof. Keeping in mind that the UPA intended to make it difficult
to rebut a presumption of parentage, see Unif. Parentage Act § 4 cmt. (1973), I conclude that LC did not
prove, by clear and convincing evidence, that she did
23

I agree with the Majority and note that the Legislature can
provide further guidance on establishing and rebutting the presumption of parentage in situations where children are born by
artificial insemination. Majority at 14.

App. 46
not consent to the artificial insemination procedure
that led to the birth of the child.
Here, the family court concluded that
[LC] did not meet her burden of proving by
clear and convincing evidence that she did not
consent to [MG] undergoing the artificial insemination procedure that resulted in her
pregnancy and the birth of the Child. [LC]
therefore has failed to rebut the presumption
under HRS § 584-4(a)(1) that she is a legal
parent of the Child.
I agree. The record demonstrates that LC did not provide clear and convincing evidence that she did not
consent to the artificial insemination procedure. In
fact, her actions before and after MG’s pregnancy indicate that she wished to be the child’s parent.
For instance, text messages between LC and MG
while LC was deployed demonstrate that LC acknowledged and assented to the pregnancy.24 When MG
24

While the parties did not, at any time, assert the spousal
privilege or raise any argument regarding confidential marital
communications at trial or on appeal, the Majority notes that Hawai‘i Rules of Evidence (HRE) Rule 505(b)(2) might prevent private communications like text messages from being used as
evidence when one party refuses to disclose them. Majority at 1517. Of course, in this case, both parties submitted evidence of
their communications and texts, so they waived their right to
keep these communications confidential.
Moreover, if a party chooses to exercise the confidential marital communication privilege, its non-disclosure in a proceeding to
disestablish parentage would make it more difficult for a spouse
to prove non-consent to an artificial insemination procedure. This

App. 47
texted LC saying she was taking fertility pills and ordering vials, LC responded “K @ pills.” When MG later
texted LC that she was pregnant, LC responded that
she wanted to “rub [MG’s] tummy and feel our baby,”
and was excited to tell her family.
Furthermore, LC took additional actions that evidenced an intent to be the mother of the child – she
sent a loving note and poem to MG noting that while
MG’s body and moods would change, “[LC and the
baby] will love [her] through it all.” When LC returned
home from deployment, she accompanied MG to an ultrasound appointment and a lamaze class.
While LC claimed that she explicitly withdrew her
consent to the IUI procedure in a fax to Shady Grove
sent on January 1, 2014 (before MG conceived the
child), the clinic received the fax on December 9, 2015
(after MG gave birth to the child). The family court
found no credible evidence that the clinic or MG received the letter before the child was born.
Finally, LC’s attempts to distinguish her case from
other cases concluding that the spouse failed to rebut
the presumption of consent to artificial insemination
are unavailing. In fact, an examination of the evidence
in this case leads me to conclude that the cases LC attempts to distinguish are indistinguishable. See
Wendy G-M., 985 N.Y.S.2d at 847 (concluding that the
is consistent with the purposes of HRS § 584-4(b), and in my view,
not a convincing reason to bar evidence of non-consent to an artificial insemination procedure to rebut a presumption of parentage.

App. 48
same-sex spouse of a mother who gave birth to a child
was the legal parent because the record demonstrated,
inter alia, that the spouse attended pre-birth classes,
participated in baby showers, and celebrated the impending birth on social media); Laura WW., 856
N.Y.S.2d at 263 (determining that the husband failed
to rebut the presumption of consent because he was
aware that his wife was preparing for an artificial insemination procedure and “proffered no evidence that
he took any steps before the [artificial insemination]
was performed to demonstrate that he was not willing
to be the child’s father”); K.S., 440 A.2d at 66-67 (concluding that the husband consented to the artificial insemination procedure even when his wife became
pregnant fifteen months after the husband’s initial
consent because he accompanied her to the artificial
insemination procedure).
Here, LC attended pre-birth classes, was aware
that MG was taking steps to become pregnant by artificial insemination, did not proffer any credible evidence that she took any steps to withdraw her consent
to the artificial insemination procedure, and was so excited when MG told her of the pregnancy that she
couldn’t wait to tell her family.
Therefore, on this record, I conclude that LC did
not prove by clear and convincing evidence that she did
not consent to MG’s artificial insemination procedure
that led to the birth of the child. The family court did
not err in concluding the same.

App. 49
IV.

CONCLUSION

In 2013, the Legislature adopted the MEA to recognize marriages between individuals of the same sex,
and granted those couples the same rights, benefits,
and protections enjoyed by heterosexual married couples. With those rights came responsibilities. See HRS
§ 572-1.8. Perhaps the greatest of these are the responsibilities of parentage. A man is presumed to be the legal parent of a child if he and the child’s natural
mother are married. HRS § 584-4(a)(1). We now hold
that this presumption of parentage applies equally to
a woman who is married to the child’s natural mother.
Accordingly, the family court did not err in
concluding that the UPA’s marital presumption of parentage applies to LC. LC also failed to rebut the presumption of parentage. Therefore, the family court’s
November 1, 2016 Decision and Order denying LC’s request for disestablishment of legal parentage is affirmed.
[SEAL]
Rebecca A. Copeland for
petitioner-appellant LC

/s/ Mark E. Recktenwald

Peter C. Renn, pro hac
vice, and Christopher D.
Thomas for respondentappellee MG
Clyde J. Wadsworth for
amicus curiae State of
Hawai‘i

/s/ Sabrina S. McKenna

/s/ Paula A. Nakayama
/s/ Richard W. Pollack
/s/ Michael D. Wilson

App. 50
*** FOR PUBLICATION IN WEST’S HAWAI‘I
REPORTS AND PACIFIC REPORTER ***
IN THE SUPREME COURT OF THE
STATE OF HAWAI‘I.
– – –o0o– – –
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT
AGENCY, STATE OF HAWAI‘I,
Respondents-Appellees.
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SCAP-16-0000837
APPEAL FROM THE FAMILY COURT
OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
OCTOBER 4, 2018
OPINION OF THE COURT BY
McKENNA, J., AS TO PART III(B)
When it adopted a modified version of the 1973
Uniform Parentage Act as Chapter 584 of the Hawai‘i
Revised Statutes (“HRS”), the Legislature specifically
deleted Section 5, which contains language requiring
a spouse to consent to artificial insemination to establish parentage. Accordingly, we hold that a spouse cannot rebut the HRS § 584-4(a)(1) marital presumption
of parentage pursuant to HRS § 584-4(b) by demonstrating by clear and convincing evidence a lack of

App. 51
consent to the other spouse’s artificial insemination
procedure.
In this case, all parties and the family court assumed that a spouse can rebut the HRS § 584-4(a)(1)
(2006) marital presumption of parentage pursuant to
HRS § 584-4(b) (2006) by showing lack of consent.
However, party agreement as to a question of law is not
binding on this court, and does not relieve us from the
obligation to review questions of law de novo. See Hawaiian Ass’n of Seventh-Day Adventists v. Wong, 130
Hawai‘i 36, 46, 305 P.3d 452, 462 (2013) (citing Chung
Mi Ahn v. Liberty Mut. Fire Ins. Co., 126 Hawai‘i 1, 10,
265 P.3d 470, 479 (2011)); Chung, 126 Hawai‘i at 10,
265 P.3d at 479 (“[P]arty agreements on questions of
law are not binding on a court.”) (citing Beclar Corp. v.
Young, 7 Haw. App. 183, 190, 750 P.2d 934, 938 (1988));
State v. Tangalin, 66 Haw. 100, 101, 657 P.2d 1025,
1026 (1983) (“[I]t is well established that matters affecting the public interest cannot be made the subject
of stipulation so as to control the court’s action with
respect thereto.”).1
For the reasons explained below, we hold that a
spouse cannot rebut the HRS § 584-4(a)(1) marital presumption of parentage pursuant to HRS § 584-4(b) by
demonstrating by clear and convincing evidence a lack
1

Justice Nakayama opines that this court should not consider this issue of law because it was not specifically argued by
the parties. Opinion of Nakayama, Section III(B)(1). We respectfully disagree. The parties’ assumption that lack of consent is a
permissible method of rebuttal is tantamount to a stipulation on
a question of law.

App. 52
of consent to the other spouse’s artificial insemination
procedure. We therefore respectfully do not agree with
Part III(B)(1) of Justice Nakayama’s opinion. In addition, the discussion in Part III(B)(2) of her opinion regarding whether consent existed is not necessary, and
we do not join that part of her opinion. Therefore,
although we otherwise agree with and join in Justice
Nakayama’s opinion, we respectfully depart from Part
III(B).
I.

PRINCIPLES OF STATUTORY INTERPRETATION REQUIRE THIS COURT TO GIVE
EFFECT TO LEGISLATIVE INTENT.

“When construing a statute, our foremost obligation is to ascertain and give effect to the intention of
the legislature, which is to be obtained primarily from
the language contained in the statute itself. And we
must read statutory language in the context of the entire statute and construe it in a manner consistent
with its purpose.” In re Doe, 95 Hawai‘i 183, 191, 20
P.3d 616, 624 (2001) (citation omitted).
Applying these principles, first, with respect to the
language “contained in the statute itself,” HRS § 5844 provides in relevant part as follows:
Presumption of paternity. (a) A man is presumed to be the natural father of a child if:
(1) He and the child’s natural mother
are or have been married to each other and
the child is born during the marriage, or
within three hundred days after the marriage

App. 53
is terminated by death, annulment, declaration of invalidity, or divorce, or after a decree
of separation is entered by a court. . . .
....
(b) A presumption under this section may be
rebutted in an appropriate action only by
clear and convincing evidence. If two or more
presumptions arise which conflict with each
other, the presumption which on the facts is
founded on the weightier considerations of
policy and logic controls. The presumption is
rebutted by a court decree establishing paternity of the child by another man.
In this case, we are asked to decide whether, pursuant to HRS § 584-4(b), the marital presumption of
parentage under HRS § 584-4(a)(1) can be rebutted
based on a lack of consent to artificial insemination.
Based on “the language contained in [HRS § 584-4(b)]
itself,” the marital presumption can be rebutted by another HRS § 584-4(a) presumption of parentage if the
other presumption “is founded on the weightier considerations of policy and logic.”2 The statute itself does not
2

The presumptions of parentage adopted by the Legislature
other than the marital presumption of HRS § 584-4(a)(1) (2006),
which could rebut the marital presumption pursuant to HRS
§ 584-4(b), are as follows:
(2) Before the child’s birth, he and the child’s natural
mother have attempted to marry each other by a marriage solemnized in apparent compliance with law, although the attempted marriage is or could be declared
invalid, and:
(A) If the attempted marriage could be declared
invalid only by a court, the child is born during

App. 54

the attempted marriage, or within three hundred
days after its termination by death, annulment,
declaration of invalidity, or divorce; or
(B) If the attempted marriage is invalid without
a court order, the child is born within three hundred days after the termination of cohabitation;
(3) After the child’s birth, he and the child’s natural
mother have married, or attempted to marry, each
other by a marriage solemnized in apparent compliance with law, although the attempted marriage is or
could be declared invalid, and:
(A) He has acknowledged his paternity of the
child in writing filed with the department of
health;
(B) With his consent, he is named as the child’s
father on the child’s birth certificate; or
(C) He is obligated to support the child under
written voluntary promise or by court order;
(4) While the child is under the age of majority, he receives the child into his home and openly holds out the
child as his natural child;
(5) Pursuant to section 584-11, he submits to court ordered genetic testing and the results, as stated in a report prepared by the testing laboratory, do not exclude
the possibility of his paternity of the child; provided the
testing used has a power of exclusion greater than 99.0
per cent and a minimum combined paternity index of
five hundred to one; or
(6) A voluntary, written acknowledgment of paternity
of the child signed by him under oath is filed with the
department of health. The department of health shall
prepare a new certificate of birth for the child in accordance with section 338-21. The voluntary acknowledgment of paternity by the presumed father filed with the
department of health pursuant to this paragraph shall
be the basis for establishing and enforcing a support
obligation through a judicial proceeding.

App. 55
contain language indicating that a HRS § 584-4(a)(1)
marital presumption of parentage can be rebutted by
a lack of consent to artificial insemination. In fact,
when the Hawai‘i State Legislature enacted HRS
§ 584-4 in 1975 as part of its adoption of the 1973 Uniform Parentage Act (the “1973 UPA”), see 1975 Haw.
Sess. Laws Act 66, at 115-16, it expressly chose not to
adopt Section 5 of the 1973 UPA regarding the need for
a spouse to consent to artificial insemination.
In 1973, the National Conference of Commissioners on Uniform State Laws approved and recommended for enactment in all states the 1973 UPA.3 The
1973 UPA contained thirty sections, of which subsections 4(a)(1) and 4(b), as well as section 5, are relevant
to the issue at hand.4
3

Unif. Parentage Act (Nat’l Conf. of Comm’rs on Unif. State
Laws 1973), available at http://www.uniformlaws.org/shared/docs/
parentage/upa73_With% 20pref% 20note.pdf.
4
The thirty sections were titled: 1. Parent and Child Relationship Defined, 2. Relationship Not Dependent on Marriage, 3.
How Parent and Child Relationship Established, 4. Presumption
of Paternity, 5. Artificial Insemination, 6. Determination of Father and Child Relationship; Who May Bring Action; When Action
May Be Brought, 7. Statute of Limitations, 8. Jurisdiction; Venue,
9. Parties, 10. Pre-Trial Proceedings, 11. Blood Tests, 12. Evidence Relating to Paternity, 13. Pre-Trial Recommendations, 14.
Civil Action; Jury, 15. Judgment or Order, 16. Costs, 17. Enforcement of Judgment or Order, 18. Modification of Judgment or Order, 19. Right to Counsel; Free Transcript on Appeal, 20.
Hearings and Records; Confidentiality, 21. Action to Declare
Mother and Child Relationship, 22. Promise to Render Support,
23. Birth Records, 24. When Notice of Adoption Proceeding Required, 25. Proceeding to Terminate Parental Rights, 26. Uniformity of Application and Construction, 27. Short Title, 28.
Severability, 29. Repeal, and 30. Time of Taking Effect.

App. 56
Subsection 4(a)(1) of the 1973 UPA stated:
§ 4. [Presumption of Paternity]
(a) A man is presumed to be the
natural father of a child if:
(1) he and the child’s natural
mother are or have been married to each
other and the child is born during the
marriage, or within 300 days after the
marriage is terminated by death, annulment, declaration of invalidity, or divorce,
or after a decree of separation is entered
by a court. . . .
This language is identical to the current language of
HRS § 584-4(a)(1).
Subsection 4(b) of the 1973 UPA stated:
(b) A presumption under this section
may be rebutted in an appropriate action
only by clear and convincing evidence. If
two or more presumptions arise which
conflict with each other, the presumption
which on the facts is founded on the
weightier considerations of policy and
logic controls. The presumption is rebutted by a court decree establishing paternity of the child by another man.
This language is identical to the current language of
HRS § 584-4(b). Section 5 of the 1973 UPA specifically
addressed artificial insemination, however, and stated:

App. 57
§ 5. [Artificial Insemination]
(a) If, under the supervision of a licensed
physician, and with the consent of her husband, a wife is inseminated artificially with
semen donated by a man not her husband, the
husband is treated in law as if he were the
natural father of a child thereby conceived.
The husband’s consent must be in writing and
signed by him and his wife. The physician
shall certify their signatures and the date of
the insemination, and file the husband’s consent with the [State Department of Health],
where it shall be kept confidential and in a
sealed file. However, the physician’s failure to
do so does not affect the father and child relationship. All papers and records pertaining to
the insemination, whether part of the permanent record of a court or of a file held by the
supervising physician or elsewhere, are subject to inspection only upon an order of the
court for good cause shown.
(b) The donor of semen provided to a licensed physician for use in artificial insemination of a married woman other than the
donor’s wife is treated in law as if he were not
the natural father of a child thereby conceived.
(Emphasis added.)
The 1973 UPA was presented to the 1975 Legislature for possible adoption as House Bill 115. On H.B.
115, Standing Committee Report No. 190 of the House
Judiciary Committee states in relevant part:

App. 58
The purpose of this bill is to enact the
Uniform Parentage Act, with appropriate
amendments, additions, and deletions to meet
particular needs in Hawaii, especially in the
areas of procedures, adoption proceedings,
and vital statistics.
The [1973 UPA] is intended to provide
substantive legal equality for all children regardless of the marital status of their parents.
...
Your Committee heard testimony on this
bill from representatives of, among others, the
Family Court, the City and County of Honolulu Corporation Counsel, Child and Family
Service, and the Hawaii Commissioners on
Uniform State Laws. On the basis of informed
advice from these sources, your Committee on
Judiciary recommends the following amendments to H.B. No 115:
1.

Delete all of Sec. -5.

H. Stand. Comm. Rep. No. 190, in 1975 House Journal,
at 1019 (emphases added).
Thus, the Hawai‘i Legislature passed the 1973
UPA, with some modifications, as Act 66 of 1975. 1975
Haw. Sess. Laws Act 66, at 115-26. The Legislature
adopted the language of subsections 4(a)(1) and 4(b) of
the 1973 UPA verbatim, yet deleted Section 5 concerning artificial insemination and its consent language.5

5

The legislative history of H.B. 115 does not explain why
Section 5 was deleted. Notably, the companion bill to H.B. 115,

App. 59

S.B. 95, prompted the following testimony by the Hawaii Commission on Uniform State Laws, specifically addressing consent
to artificial insemination in Section 5, as follows:
Birth by artificial insemination is also treated in
the Parentage Act. State laws conflict as to the parentage of a child conceived through artificial insemination.
In [the 1973 UPA], the consent of the parents control.
If the parents consent in writing, and the insemination
is supervised by a licensed physician, the husband is
treated at law as the natural father. The physician is
required to obtain the written consent, to certify the
signatures, and file the documents with the State Department of Health. Artificial insemination becomes,
under these conditions, the same legally as natural insemination by the husband.
Testimony of Patricia K. Putnam, Hawaii Comm’n on Uniform
State Laws, Testimony on S.B. 95, “A BILL RELATING TO THE
UNIFORM PARENTAGE ACT[,”] before the Senate Judiciary
Committee, Feb. 5, 1975 (emphasis added).
S.B. 95 did not advance after its hearing in the Senate Judiciary Committee, while H.B. 115 eventually passed into law. The
record of testimony on H.B. 115 and S.B. 95 in the State Archives
is scant. The archival record shows the Hawaii Commission on
Uniform State Laws did not submit testimony regarding H.B.
115, but the House Standing Committee Report No. 190 on H.B.
115 refers to testimony submitted by the Hawaii Commission on
Uniform State Laws, suggesting the members of the House Judiciary Committee may have been aware of S.B. 95 testimony. In
any event, in passing H.B. 115 into law without Section 5, the
Legislature rejected the idea that “consent of the parents [would]
control” with respect to artificial insemination. Therefore, because the Legislature specifically rejected a requirement of consent to artificial insemination for a husband to be recognized as
the father of his wife’s child conceived through artificial insemination, we should not, through the common law, allow lack of consent to rebut the spousal parentage presumption under HRS
§ 584-4(a)(1).

App. 60
As noted, “when construing a statute, our foremost
obligation is to ascertain and give effect to the intention of the [L]egislature, which is to be obtained primarily from the language contained in the statute
itself.” In re Doe, 95 Hawai‘i at 191, 20 P.3d at 624. The
Legislature rejected Section 5 of the 1973 UPA and has
not later enacted a provision allowing for the spousal
presumption of parentage to be rebutted through lack
of consent to artificial insemination. Thus, judicial
recognition of this method of rebutting parentage
would constitute adoption of a method expressly rejected by the Legislature and not “contained in the language of the statute itself[.]” Recognition of this
method of rebuttal would therefore violate the initial
rule of statutory interpretation.
Second, even if this rule of statutory interpretation and legislative intent did not control, another cardinal rule of statutory interpretation is that “we must
read statutory language in the context of the entire
statute and construe it in a manner consistent with its
purpose.” As pointed out earlier, Standing Committee
Report No. 190 of the House Judiciary Committee laid
out the legislative purpose in adopting the UPA, which
was to provide substantive legal equality for all children regardless of the marital status of their parents.
In Doe v. Doe, this court stated:
The substantive legal rights that illegitimate
children were denied in many states included such rights as the right to intestate
succession, the right to benefit from a statutory cause of action typically accorded to

App. 61
legitimate children, and the right to be the
beneficiary of child support from the father.
For purposes of this discussion, the UPA and,
by extension, chapter 584 are largely concerned with establishing a means by which to
identify the person (usually the father)
against whom these rights may be asserted.
In short, it is to ensure that every child, to the
extent possible, has an identifiable legal father. Although this goal will usually overlap
with the desire of a child to know the identity
of his or her biological father, the two are not
always the same.
99 Hawai‘i 1, 8, 52 P.3d 255, 262 (2002) (internal citations omitted).
Thus, as recognized in Doe, although in the context of providing equality to children born outside a
marriage, the legislative purpose of Chapter 584, including HRS § 584-4, was “to ensure that every child,
to the extent possible,” has another parent to provide
the child with the rights to intestate succession, to benefit from statutory causes of action afforded to children
of married parents, and to financial support.
Along these lines, the only specific methods for rebutting a parentage presumption delineated by HRS
§ 584-4(b) involve a parent under one presumption being replaced by a parent under another presumption
or as determined by a court decree. The structure of
HRS § 584-4(b) therefore supports our observation in
Doe that the purpose of HRS Chapter 584 is to provide
a child with a second parent obligated to provide the
child with financial benefits.

App. 62
In this case, LC seeks to disestablish parentage
and thereby eliminate financial obligations to the
child. Allowing a spouse to rebut parentage based on a
lack of consent to artificial insemination would eliminate financial benefits to the child from the spouse presumed to be a parent, which is inconsistent with the
legislative purpose of Chapter 584 “to ensure that
every child, to the extent possible,” has another parent
to provide the child with these financial benefits. Such
a holding would therefore violate another cardinal rule
of statutory interpretation.
Thus, based on fundamental principles of statutory interpretation, lack of consent to artificial insemination is not a method of rebutting the marital
presumption of parentage under HRS § 584-4(a). Although these principles of statutory interpretation control and further analysis is therefore not required, the
factors below also dictate against adoption of this
method of rebutting the marital presumption of parentage.
II.

SECTION 5 OF THE UPA, WHICH THE
LEGISLATURE REJECTED, WAS IN ANY
EVENT NOT INTENDED TO PROVIDE A
METHOD OF REBUTTING PARENTAGE.

Even if the Legislature had adopted Section 5 of
the 1973 UPA, which it did not, the purpose of that
rejected artificial insemination provision was not to
provide a method of rebutting or disestablishing
the presumption of parentage under Section 4(a)(1).

App. 63
Rather, the purpose of Section 5 of the 1973 UPA was
to provide another method of establishing paternity
when no presumption under Section 4 existed to provide a father to the child.
As stated in the Prefatory Note to the 1973 UPA,
the 1973 UPA first set up “a network of presumptions
which cover cases in which proof of external circumstances (in the simplest case, marriage between the
mother and a man) indicate a particular man to be the
probable father. . . . All presumptions of paternity are
rebuttable in appropriate circumstances.” 1973 UPA,
Prefatory Note ¶ 10. These presumptions based on
proof of external circumstances were reflected in the
1973 UPA Section 4(a) presumptions, which were
adopted verbatim as HRS § 584-4(a), and remain in effect today. The Prefatory Note goes on to state, however:
The ascertainment of paternity when no external circumstances presumptively point to a
particular man as the father are [sic] the next
major function of the Act.
1973 UPA, Prefatory Note ¶ 11. That next “major function of the Act” began with Section 5, governing artificial insemination.
Therefore, the intent of the consent provision of
Section 5, which was the section following the “external circumstances presumptions” of Section 4(a) in the
1973 UPA, was not to provide a mechanism to rebut or
disestablish a presumption of parentage under Section
4(a)(1). Rather, the intent of Section 5 was to provide

App. 64
another method to establish paternity when no “external circumstances” provided a presumption of paternity under Section 4(a). Under the facts of this case,
this method of establishing parentage is not necessary
due to the applicability of the marital presumption of
parentage under HRS § 584-4(a)(1).
III. ADOPTION OF A COMMON LAW RULE
BASED ON LACK OF CONSENT TO ARTIFICIAL INSEMINATION OPENS THE
DOOR TO OTHER METHODS OF REBUTTAL BASED ON LACK OF CONSENT.
Recognition of a common law6 rule allowing a
spouse to rebut parentage based on a lack of consent to
artificial insemination would open the door to arguments from spouses who did not consent to other methods or causes of impregnation to seek relief from
parental obligations. There are various other methods
of impregnation as to which a spouse might not consent. For example, pregnancy could result from a negligent or intentional failure of a contraceptive method,
a negligent or intentional misrepresentation regarding
infertility status, or even sexual assault by a third person. If we were to allow a spouse to rebut parentage
through lack of consent to a manner of conception as a
matter of common law, the slippery slope would be

6

Black’s Law Dictionary defines “common law” as “[t]he body
of law derived from judicial decisions, rather than from statutes
or constitutions. . . .” “Common Law,” Black’s Law Dictionary 334
(10th ed. 2014).

App. 65
opened to similar arguments for other methods of impregnation to which a spouse did not consent.7
This concern would not arise if a specific method
of disestablishing parentage is set out by the Legislature. As explained in Section I, supra, our opinion that
lack of consent to artificial insemination cannot be a
method of rebutting the marital presumption of parentage is fundamentally based on the Legislature’s express rejection of Section 5 of the 1973 UPA. If the
Legislature chooses to recognize lack of consent to artificial insemination as a method of rebutting parentage, it could also consider the concerns we express in
this opinion.8
7

For this reason and also because the Legislature did not
make a distinction regarding the means by which a parentage
presumption can be rebutted based on how a child is brought into
being, we respectfully disagree with Justice Nakayama that issues of consent in situations in which sexual intercourse results
in the birth of a child require a different analysis under Chapter
584. Opinion of Nakayama, J., at n.21.
8
Although we need not decide the issue at this time, it appears the marital presumption of parentage of a child conceived
through artificial insemination could be rebutted under HRS
§ 584-4(b) through clear and convincing evidence of the existence
of another common law “parent,” such as a “de facto,” “psychological,” or “intended” “parent[,]” and/or evidence that disestablishment of parentage would be in the best interests of the child. We
therefore respectfully disagree with Justice Nakayama’s opinion
that “the Majority does not provide any meaningful way to rebut
the marital presumption where only one presumption arises, and
where an artificial insemination procedure leads to the birth of a
child.” Opinion of Nakayama, J., Section III(B)(1)(b). Parentage
can also be terminated through HRS Chapter 587A (Supp. 2010),
the Child Protective Act. In addition, the issue here is whether
lack of consent to artificial insemination is a method of rebutting

App. 66
IV. ADOPTION OF A COMMON LAW RULE
BASED ON LACK OF CONSENT TO ARTIFICIAL INSEMINATION ALSO RAISES ISSUES WITH RESPECT TO THE SPOUSAL
PRIVILEGE.
Recognition of lack of consent as a method of rebutting the marital presumption of parentage also
raises significant issues regarding the spousal privilege under the Hawai‘i Rules of Evidence. Determining
whether a spouse consented may well involve inquiries
into confidential marital communications between
spouses, as happened in this case.
Rule 505 of the Hawai‘i Rules of Evidence regarding the “Spousal privilege” provides as follows:
a) Criminal proceedings. In a criminal proceeding, the spouse of the accused has a privilege not to testify against the accused. This
privilege may be claimed only by the spouse
who is called to testify.
b) Confidential marital communications; all
proceedings.
(1) Definition. A “confidential marital
communication” is a private communication
between spouses that is not intended for disclosure to any other person.
the marital presumption of parentage. The Legislature’s adoption
in HRS § 584-4(b) of a “clear and convincing evidence” burden of
proof to rebut a parentage presumption does not affect the preliminary question of whether it rejected lack of consent to artificial insemination as a method of rebuttal. Opinion of Nakayama,
J., Section III(B)(1)(b).

App. 67
(2) Either party to a confidential marital communication has a privilege to refuse to
disclose and to prevent any other person from
disclosing that communication.
(c) Exceptions. There is no privilege under this rule (1) in proceedings in which one
spouse is charged with a crime against the
person or property of (A) the other, (B) a child
of either, (C) a third person residing in the
household of either, or (D) a third person committed in the course of committing a crime
against any of these, or (2) as to matters occurring prior to the marriage.
(Emphases added.)
We have held that “[m]arital communications are
presumed to be confidential,” although “the presumption may be overcome by proof of facts showing they
were not intended to be confidential.” State v. Levi, 67
Haw. 247, 250, 686 P.2d 9, 11 (1984) (citing Pereira v.
United States, 347 U.S. 1, 6 (1954); Blau v. United
States, 340 U.S. 332, 333 (1951)). The presence of a
third party, for example, “negates any presumption of
privacy.” Levi, 67 Haw. at 250, 686 P.2d at 11 (citing
Picciurro v. United States, 250 F.2d 585, 589 (8th Cir.
1958)).
No facts negating the presumption of confidentiality appear to have been present in this case, but the
spousal privilege was in any event not asserted. The
family court engaged in an excruciating analysis of
multiple conflicting communications in an attempt to
discern whether LC consented by clear and convincing

App. 68
evidence to MG’s artificial insemination procedure.
The family court’s findings are therefore replete with
discussions of communications between the spouses
during their marriage, some of which are referred to in
Justice Nakayama’s opinion, which appear to have
been intended to be confidential. Had the spousal privilege been asserted by either spouse in this case, the
family court would have had to determine whether the
communications were intended to be confidential and
therefore subject to the spousal privilege.
If the communications were found subject to the
spousal privilege, the family court would have had to
determine whether consent existed without such evidence, making it more difficult to ascertain the true intent of LC with respect to the consent issue. The same
spousal privilege issue could well arise in cases concerning other methods of impregnation, discussed earlier, as to which a spouse might not consent.
We do not find persuasive the New Jersey and
South Carolina cases cited in Justice Nakayama’s
opinion, K.S. v. G.S., 440 A.2d 64 (N.J. Super. Ct. Ch.
Div. 1981), and In re Baby Doe, 353 S.E.2d 877 (S.C.
1987), which are cited as jurisdictions that recognize
lack of consent to artificial insemination in absence of
a statute. New Jersey recognizes a clear exception to
the spousal privilege in lawsuits between the spouses,
N.J. Code § 2A:84A-22 (1992), and South Carolina
recognizes an exception to the spousal privilege for a
proceeding concerning child neglect. S.C. Code of Laws
§ 19-11-30 (2012). Therefore, in addition to it being
unclear whether those states’ legislatures expressly

App. 69
rejected Section 5 of the 1973 UPA and, if so, why, those
states do not share the spousal privilege concern implicated here. Thus, recognition of lack of consent as a
method of rebutting the marital presumption of parentage raises serious policy and practical concerns
arising out of the spousal privilege.
V.

ADOPTION OF A COMMON LAW RULE
ALLOWING THE MARITAL PRESUMPTION OF PARENTAGE TO BE REBUTTED
BASED ON LACK OF CONSENT TO ARTIFICIAL INSEMINATION DOES NOT FACTOR IN THE BEST INTERESTS OF THE
CHILD.

Finally, recognition of a common law rule allowing
a spouse to rebut the marital presumption of parentage based on a lack of consent to artificial insemination
does not consider the best interests of the child conceived through artificial insemination. HRS § 58415(c) provides as follows in regard to a judgment or order in a parentage case under HRS Chapter 584:
The judgment or order may contain any other
provision directed against the appropriate
party to the proceeding, concerning the duty
of support, the custody and guardianship of
the child, visitation privileges with the child,
the furnishing of bond or other security for the
payment of the judgment, or any other matter
in the best interest of the child.
(Emphasis added.)

App. 70
The best interests of the child conceived through
artificial insemination are implicated in the legislative
purpose of HRS Chapter 584 discussed in Section I
above, that a child have two parents to provide financial benefits. It is also important to point out, however,
that allowing rebuttal of the marital presumption of
parentage based on a lack of consent to artificial insemination would not prohibit a spouse from rebutting
parentage during a marriage in which the child conceived by artificial insemination continues to live in
the marital home.9
In addition to the financial benefit implications, allowing a spouse to rebut parentage of a child conceived
through artificial insemination during an intact marriage could have consequences well beyond the financial aspects of a child’s best interests, such as the
child’s sense of belonging and acceptance.
9

With respect to financial benefits, allowing a spouse to rebut parentage under such circumstances would also circumvent
the intent of HRS § 572-24 (2006), which otherwise requires a
spouse to provide financial support to the family:
Spousal liabilities. Both spouses of a marriage,
whether married in this State or in some other jurisdiction, and residing in this, shall be bound to maintain, provide for, and support one another during
marriage, and shall be liable for all debts contracted by
one another for necessaries for themselves, one another, or their family during marriage; provided that
when a support or maintenance obligation, however
designated, is imposed upon a spouse under chapter
580 or any other law, the amount of such obligation
shall be determined by the appropriate court on the basis of factors enumerated in section 580-47(a).
(Emphases added.)

App. 71
Therefore, allowing a spouse to rebut parentage
based on lack of consent to artificial insemination does
not give due consideration to the best interests of the
child.
V.

CONCLUSION

For all of these reasons, we hold that a spouse cannot rebut the marital presumption of parentage under
HRS § 584-4(a)(1) pursuant to HRS § 584-4(b) by
demonstrating by clear and convincing evidence a lack
of consent to the artificial insemination procedure that
resulted in the conception and birth of the child.
[SEAL]
/s/ Sabrina S. McKenna
/s/ Richard W. Pollack
/s/ Michael D. Wilson

App. 72
SCAP-16-0000837
IN THE SUPREME COURT OF THE
STATE OF HAWAI‘I
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT
AGENCY, STATE OF HAWAI‘I,
Respondents-Appellees.
APPEAL FROM THE FAMILY COURT
OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
ORDER DENYING MOTION FOR
RECONSIDERATION AND REARGUMENT
(By: McKenna, Pollack, and Wilson, JJ.,
with Nakayama, J., dissenting separately,
with whom Recktenwald, C.J., joins)
Upon consideration of Petitioner/Appellant LC’s
Motion for Reconsideration and Reargument filed October 25, 2018 (the “motion”), the memorandum and
declaration submitted in support thereof, and the records and files herein,
IT IS HEREBY ORDERED that the motion is denied. Contrary to the arguments raised in the motion,
(1) although the issue of whether, under Hawai‘i law, a
spouse’s lack of consent to artificial insemination or
other methods of conception could be a basis for rebutting the marital presumption of parentage was not

App. 73
discussed in the briefs, it was a major focal point of the
oral argument in this case, and no party requested an
opportunity to provide supplemental briefing; (2) the
Opinion of McKenna, J., as to Part III(B) does not create an “irrebuttable” or “conclusive” presumption of
parentage, see n.8 of the Opinion of McKenna, J., as to
Part III(B), and (3) the cases and situations cited in the
motion are fully distinguishable.
DATED: Honolulu, Hawai‘i, November 2, 2018.
/s/ Sabrina S. McKenna
/s/ Richard W. Pollack
/s/ Michael D. Wilson

[SEAL]

App. 74
SCAP-16-0000837
IN THE SUPREME COURT OF THE
STATE OF HAWAI‘I
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT
AGENCY, STATE OF HAWAI‘I,
Respondents-Appellees.
APPEAL FROM THE FAMILY COURT
OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
CONCURRENCE AND DISSENT
(By: Nakayama, J., in which
Recktenwald, C.J., joins)
Because neither party in this case briefed whether
the marital presumption of parentage could be rebutted by demonstrating lack of consent to the artificial
insemination procedure that led to the birth of the
child, I believe the parties deserve an opportunity to do
so.
Accordingly, I would grant in part LC’s Motion for
Reconsideration and Reargument and allow the parties to brief the specific issue addressed sua sponte by
a Majority of the Court in Opinion of McKenna, J., as
to Part III(B). I would deny the Motion in all other respects.

App. 75
DATED: Honolulu, Hawai‘i, November 2, 2018.
/s/ Mark E. Recktenwald
/s/ Paula A. Nakayama

[SEAL]

App. 76
SCAP-16-0000837
IN THE SUPREME COURT OF THE
STATE OF HAWAI‘I
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT
AGENCY, STATE OF HAWAI‘I,
Respondents-Appellees.
APPEAL FROM THE FAMILY COURT
OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
JUDGMENT ON APPEAL
(By: Nakayama, for the court1)
Pursuant to the opinions of the Supreme Court of
the State of Hawai‘i entered on October 4, 2018, the
Family Court of the First Circuit’s November 1, 2016
Decision and Order is affirmed.
DATED: Honolulu, Hawai‘i, February 4, 2019.
FOR THE COURT:
/s/ Paula A. Nakayama

[SEAL]

Associate Justice

1

Court: Recktenwald, C.J., Nakayama, McKenna, Pollack,
and Wilson, JJ.

App. 77
IN THE FAMILY COURT OF THE FIRST CIRCUIT
STATE OF HAWAI‘l
LASHAUNDRA SHARNAE FC-P No. 16-1-6009
COLLINS,
Decision and Order
Petitioner,
Judge: Matthew J. Viola
vs.

Trial Dates:
MELISSA EVETTE GAYLE, August 22 and 30, 2016
Defendant.
DECISION AND ORDER
(Filed Nov. 1, 2016)
A trial on Petitioner Lashaundra Sharnae Collins’
Petition to Disestablish Parentage was held on August
22, 2016 and August 30, 2016. The primary issue for
trial was whether Petitioner is the legal parent of a
child born to Defendant Melissa Evette Gayle during
the parties’ marriage, Evans M. Smith, Esq., appeared
on behalf of Petitioner, who was present at the trial.
Christopher D. Thomas, Esq., appeared on behalf of
Defendant, who also was present at the trial. The trial
was consolidated for hearing with the hearing on Defendant’s Motion and Declaration for Pre-Decree Relief, filed on December 4, 2015, in FC-D No. 15-1-1327.
Having fully considered all the relevant evidence,
the applicable substantive law, and the arguments of
counsel, and having assessed the credibility of the witnesses, based on the reliable and credible evidence, the

App. 78
court makes the following findings of fact, conclusions
of law, and orders:
Jurisdiction
1.

The court has jurisdiction over this action pursuant to Hawai‘i Revised Statutes (HRS) §§ 57111(3), 571-14(a)(6), 571-46(a), 583A-201(a)(1),
and 584-8.

2.

HRS § 571-11(3) provides in pertinent part that
the court has exclusive original jurisdiction in
proceedings to determine the custody of a child.

3.

HRS § 571-14(a)(6) provides in pertinent part
that the court has exclusive original jurisdiction
in all proceedings for support between a parent
and child.

4.

HRS § 571-46(a) provides in pertinent part that
in any proceeding where there is at issue a dispute as to the custody of a minor child, the court,
during the pendency of the action, at the final
hearing, or any time during the minority of the
child, may make an order for the custody of the
minor child as may seem necessary or proper.

5.

HRS § 583A-201(a)(1) provides in pertinent part
that the court has jurisdiction to make an initial
child-custody determination if Hawai‘i is the
home state of the child.

6.

The child who is the subject of these proceedings,
L.C.G. (the “Child”), was born on November 11,
2015 in the State of Hawai‘i. He has lived in Hawai‘i continuously since his birth up to the trial
dates. At the time the complaint for divorce was

App. 79
filed on October 7, 2016, the subject minor child
was not yet born. As of the date of his birth and
pursuant to HRS § 583A-101, Hawai‘i became the
child’s home state. Hawai‘i therefore has jurisdiction to make an initial child custody determination pursuant to HRS § 583A-201.
7.

HRS § 584-8 provides in pertinent part that the
family court has jurisdiction over actions brought
under HRS chapter 584, which includes actions
brought for the purpose of declaring the non-existence of a parent and child relationship (see
HRS § 584-6).

Procedural Background
8.

On January 11, 2016, Petitioner filed a Petition
to Disestablish Parentage, seeking an order that
she be disestablished as the co-parent of the
Child. An ex parte motion to advance the return
hearing on the petition was granted and the return hearing was set for February 8, 2016.

9.

The return hearing was consolidated with the
hearing on a motion for pre-decree relief filed by
Defendant in the parties’ related divorce case
(FC-D No. 15-1-1327). The Defendant’s motion
for pre-decree relief sought orders awarding Defendant sole custody of the Child and requiring
Petitioner to pay child support. The main issue
for hearing in both matters was whether Petitioner is the legal parent of the Child.

10.

By stipulation of the parties, the trial set for February 8, 2016 was set aside and subsequently reset for March 1, 2016.

App. 80
11.

The March 1, 2016 trial was subsequently set
aside by stipulation. The trial date was re-set and
then continued and re-set several times by stipulation of the parties.

12.

On May 20, 2016, the parties and counsel for the
Child Support Enforcement Agency of the State
of Hawai‘i (CSEA) stipulated to an order joining
CSEA as a party to the case.

13.

The court takes judicial notice of the records and
files in FC-D No. 15-1-1327.

Factual Background
14.

Petitioner is female and is employed as an officer
in the United States Navy. Defendant is female
and employed as a nurse with the United States
Department of Defense, Army National Guard.

15.

The parties met each other in 2010 and soon
thereafter began a dating relationship.

16.

Prior to their eventual marriage the parties discussed their desires to have children together.

17.

On August 14, 2012, the parties jointly attended
a consultation appointment at the Shady Grove
Fertility Reproductive Sciences Center (hereinafter “Shady Grove”) in Rockville, Maryland. During the appointment, the parties met with a
registered nurse and doctors and discussed methods of artificial insemination, which included intrauterine insemination (IUI).

18.

On October 13, 2013, the parties were legally
married in the District of Columbia (Washington,
D.C.). At the time of the marriage and thereafter,

App. 81
the parties believed that they were legally married.
19.

On October 14, 2013, the day following their marriage, both parties again attended an appointment at Shady Grove.

20.

During their October 14, 2013 Shady Grove appointment, both parties jointly executed documents for Shady Grove, which included: “Consent
To Ovulation Induction, Monitoring And/Or
Insemination Treatment”; “Consent To Accept
Donated Sperm From Anonymous Donor”; and
“Genetic Disease Screening Informed Consent
Form”.

21.

The Shady Grove “Consent To Accept Donated
Sperm From Anonymous Donor” form identified
Defendant as the “Sperm Recipient” and Petitioner as the “Recipient Partner.” The form provided in part: “I/We have had the opportunity to
discuss our decision to use donor sperm with a
physician and mental health professional and
my/our questions to date have been answered to
my/our satisfaction.”

22.

On or about January 1, 2014, the Parties travelled to the Dominican Republic for a wedding
ceremony and celebration.

23.

In early 2014, the parties jointly attended an appointment with Dr. Judith Horowitz, a psychologist in Florida, where they were both living. The
purpose of this appointment was to evaluate the
parties to determine their psychological fitness to
have a child through artificial means.

App. 82
24.

Petitioner wrote a check to pay for Dr. Horowitz’s
services.

25.

In October 2014, the parties moved to Hawai‘i
pursuant to Petitioner’s military orders and assignment.

26.

The parties thereafter cohabitated in militarysponsored privatized housing on Oahu. Their residence was a three bedroom house. Petitioner was
paid military Basic Allowance for Housing (BAH)
to maintain this residence.

27.

At the time the parties moved to Hawai‘i, Defendant was not employed and Petitioner was financially supporting the family.

28.

Following their arrival in Hawai‘i, the parties researched potential sperm banks and jointly decided to use California Cryobank, based in part
on a recommendation of Shady Grove, to research
potential sperm donors. Both parties researched
sperm donor candidates and Defendant prepared
spread sheets, based on each party’s preferences.

29.

Because the parties had relocated to Hawai‘i, it
was no longer logistically feasible to continue fertility counseling and treatment with Shady
Grove. As a result the parties jointly decided to
transition to Fertility Institute of Hawaii (“FIH”).

30.

On or about December 8, 2014, the parties jointly
attended an appointment at FIH. Both parties
jointly met with FIH staff and toured the facility.
The parties were provided with information
about IUI.

App. 83
31.

The parties jointly decided that Defendant would
be impregnated for several reasons, which included her advancing age and the demands of Petitioner’s position with the Navy and potential
deployment.

32.

In late 2014, Petitioner was informed that she
was to be ordered away from the [sic] Hawai‘i for
military duties in early 2015. Petitioner informed
Defendant of this military deployment.

33.

Petitioner was on military assignment overseas
starting in approximately late January 2015. She
returned to Hawai‘i in September 2015.

34.

The parties maintained a joint bank account with
Navy Federal Credit Union.

35.

In February 2015, the parties communicated
about and jointly chose a preferred sperm donor
through California Cryobank.

36.

In February 2015, Defendant expressed anxiety
in text messages to Petitioner that she did not
have enough funds available in the parties’ joint
bank account to pay for the sperm donor submission via California Cryobank.

37.

On February 21, 2015, Defendant sent a text
message to Petitioner that stated in part: “I do
have to tell you something . . . I’m so worried
about IUI. . . . I have been checking the PO box
every single day waiting for my refund and nothing! My menses is here and I’m supposed to order
out vial on Monday morning. I’m so upset and depressed bc I don’t have the extra money now.”

App. 84
38.

On February 23, 2015, Defendant sent a text
message to Petitioner that stated: “Babe, it looks
like everything is all good. I start clomid tonight,
and come back in a week. And I’m so happy that
I do have ‘time’ to order our vial! Happy Birthday
indeed! GN love!”

39.

Clomid is fertility drug.

40.

On February 23, 2015, Petitioner sent a text to
Defendant, which stated: “Good morning baby.
I’m glad everything went o.k.”

41.

On February 25, 2015, Petitioner and Defendant
exchanged a series of text messages. Among other
things, they discussed the state of their relationship and starting a family. The text messages are
reflected in Defendant’s exhibit N and Petitioner’s exhibits 1, 2 and 6.

42.

In one text message sent on February 25, 2015,
Defendant asks Petitioner if she was “having second thoughts.” Petitioner responded by text, stating: “I want to make sure we are truly good before
we start a family. I know that you are getting
older and time is of the essence but I don’t want
to make a baby to try and fix us. I want a child
more than anything but I want them to have parents that adore each other as well as them. Not
saying we don’t[.]”

43.

In response to a query sent by Defendant by text
on February 25, 2015, Petitioner stated: “No I’m
not opposed to u traveling at all. You push yourself sometimes and I don’t want our child to have
any unnecessary stress[.]”

App. 85
44.

In another text message sent to Petitioner by Defendant on February 25, 2015, Defendant stated,
“Hot/Cold = family. It’s lie all the cosmos lined up
and now you’re backing out.” In a responsive text
message, Petitioner stated, “What are you talking
about backing out? I have always wanted a
child[.]”

45.

The text messages between Petitioner and Defendant on February 25, 2015 ended with the following exchange: Defendant sent Petitioner text
messages stating, “I respect your need for sleep
answer can talk later. I love you. Gonna take a
nap. The way (from our previous convos), I’d stres
taking the pills for he past few days per doctor’s
orders[.] I have been taking the pills since Monday to prepare . . . Lé siiiigh[.] I forgot to tell you
that. Night!” Petitioner responded by text, stating, “K @ pills. Good morning love, do well in
class[.]”

46.

On or about February 26, 2015, Defendant ordered a vial of sperm of the selected donor from
California Cryobank. She used funds in the
parties’ joint bank account to pay California
Cryobank for the vial.

47.

On March 2, 2015, Defendant signed a consent
allowing FIH to receive the sperm which she had
ordered from California Cryobank. Petitioner,
who was deployed overseas, did not sign the consent.

48.

On March 2, 2015, Defendant underwent a
transvaginal ultrasound through Dr. John L.
Frattarelli in preparation for an IUI procedure.

App. 86
49.

Defendant sent a text message to Petitioner on
March 2, 2015 that stated, “Hi Babe! There was
only 1 mature follicle today and they took lab
work. They are going to call me later today to let
know if we can get IUI tomorrow or Wednesday
. . . As for now, my Aptmt is for Wed. And I have
to give myself a shot on the L side tonight to help
the ‘timing’ . . . ”

50.

Petitioner responded to Defendant’s March 2,
2015 by texting a message stating, “Hi honey. OK.
Tty after my flight. I love you[.]”

51.

Petitioner was aware that Defendant was taking
steps to prepare to undergo an artificial insemination procedure in early March 2015.

52.

On March 4, 2015, Defendant signed a Consent
for Intrauterine Insemination for FIH. Petitioner,
who was deployed overseas, did not sign the consent.

53.

On March 4, 2015, Defendant underwent an
IUI procedure at FIH and was inseminated with
the sperm that was ordered from California
Cryobank.

54.

The IUI procedure resulted in the conception of
the Child and the Defendant’s pregnancy with
the Child.

55.

DNA testing confirmed that there was a 99.99
percent probability that the Child was conceived
with the donor sperm from California Cryobank.

56.

On March 19, 2015, Defendant informed Petitioner via a text message that Defendant was
pregnant. The text message stated, “Ahh, I know

App. 87
you’re sleeping. Appointment went just fine, but
was a lab appointment. Pregnancy test positive
and levels are way above the minimum for pregnancy. Will go Sat and Mon morning. So I’m
thinking you might be pregnant?! Okay babe.
Sleep well. I love you.”
57.

In response to the March 19, 2015 text message,
Petitioner sent a text message to Defendant stating, “:-D I’sa pregnant!!! I love you baby!!!”

58.

Defendant sent other text messages to Petitioner
on March 19, 2015, one of which stated, “So when
are we telling people? And who will know initially? I don’t want to over share and I’m definitely NOT putting it online for a Looooooooong
time (if then)[.]” Petitioner replied with a text
stating, “I get to rub your tummy and feel our
baby. :-)[.]” Later in the same message exchange,
Petitioner stated “You tell me when. I’m telling
my mom and brother whenever we do.”

59.

The parties continued to exchange text messages
through March 26, 2015, as reflected in Defendant’s exhibit N.

60.

After the conception of the Child, Petitioner independently communicated with the Pali Women’s
Health Center in order to determine the gender
of the Child.

61.

On or about Mother’s Day 2015, Petitioner wrote
and sent a note containing a poem to Defendant.
The note is addressed: “To: The Future Mother[.]
From: The Future Momma/Papa.” In part, the
poem refers to “our child[’]s eyes”. The note also

App. 88
contains the statement: “I will always be here for
our Family. XOXO.”
62.

On or about June 8, 2015, Petitioner wrote a postcard addressed to “Melissa & Future Son/Daughter.” The postcard, which does not contain a
physical address for Defendant, states in part:
“I got you a spa kit to let you pamper yourself
and for my future child I bought you the softest/
coolest Iceland bear I could find. I love you both!
I hope you enjoy your gifts.”

63.

In July 2015, Defendant attended a medical
appointment with Dr. Emilie Stickley, an
obstetrician-gynecologist, at Pali Women’s Health
Center. Petitioner participated in the appointment via FaceTime.

64.

In August 2015, a baby shower party was held in
Florida. Defendant attended the party in person.
Petitioner participated in part of the party by
FaceTime. During this party the gender of the
baby was revealed to Defendant.

65.

Petitioner returned to Hawai‘i in September
2015.

66.

Following Petitioner’s return to Hawai‘i, Petitioner and Defendant jointly attended Lamaze
classes.

67.

Following Petitioner’s return to Hawai‘i, Petitioner attended a pregnancy ultrasound imaging
test that Defendant underwent.

68.

Defendant’s Exhibit KK is a letter dated January
1, 2014 from Petitioner to Shady Grove. The letter states that Petitioner withdraws her consent

App. 89
to IUI, IVF or any other procedure performed on
Defendant and that any child born to Defendant
without Petitioner’s consent “will not be my child
or responsibility in any way.”
69.

There is no credible evidence that Petitioner sent
the letter marked as Ex. KK to Shady Grove prior
to the birth of the Child.

70.

There is no credible evidence that Petitioner gave
a copy of the letter marked as Ex. KK to Defendant or informed her of its content prior to the
birth of the Child.

71.

Defendant did not become aware of the letter
marked as Ex. KK or its content until after the
birth of the Child.

72.

FIH retains the medical records only of the patient undergoing treatment.

73.

FIH does not require the partner or spouse of the
patient undergoing treatment to consent to the
treatment.

74.

There is no credible evidence that prior to Defendant undergoing the IUI procedure on March
4, 2015 or prior to the Child’s birth that Petitioner informed FIH that she did not consent to
or that she objected to Defendant undergoing an
IUI or any other artificial insemination procedure to become pregnant.

75.

Prior to March 4, 2015, Petitioner did not inform
Defendant that she objected to and/or did not
consent to Defendant undergoing an artificial insemination procedure at FIH.

App. 90
76.

Petitioner’s testimony that prior to Defendant
undergoing the IUI artificial insemination procedure on March 4, 2015 she clearly verbally
informed Defendant that she objected to Defendant’s attempt to get pregnant at that time was
not credible.

77.

On November 11, 2015, Defendant gave birth to
the Child at Castle Medical Center.

78.

Defendant is the Child’s natural mother.

79.

Both Petitioner and Defendant are listed as the
Child’s parents on his birth certificate. Petitioner
did not consent to her name being listed as a parent on the birth certificate.

Analysis:
80.

The fundamental issue in this case is whether
Petitioner is a legal parent of the Child. In other
words, the critical question presented in this case
is: Does a legal parent/child relationship exist between Petitioner and the Child? If the answer to
this question is “yes”, then Petitioner has all of
the rights, privileges, duties and obligations the
law confers or imposes on a legal parent. Conversely, if the answer to the question presented is
“no”, then Petitioner has none of the rights, privileges, duties and obligations the law confers or
imposes on a legal parent.

81.

Although it is not the exclusive means for determining how a parent-child relationship may be
established (Doe v. Doe, 99 Hawai‘i 1, 5, 52 P.3d
255, 259 (2002)), the starting point for the analysis is the Uniform Parentage Act, HRS chapter

App. 91
584. Inouye v. Inouye, 118 Hawai‘i 86 (App. 2008)
(“chapter 584 discusses how a parent-child relationship may be established[.]”).
82.

HRS § 584-1 provides:
[a] ‘parent and child relationship’ includes the legal relationship existing
between a child and the child’s natural mother, between a child and father whose relationship as parent
and child is established under this
chapter, or between a child and the
child’s adoptive parents, incident to
which the law confers or imposes
rights, privileges, duties, and obligations.

83.

HRS § 584-21 provides in part that “[i]nsofar as
practicable, the provisions of this chapter [the
Uniform Parentage Act] applicable to the father
and child relationship shall apply” to an action to
determine the existence or nonexistence of a
mother and child relationship.

84.

The Hawaii Marriage Equality Act of 2013 was
intended by the legislature to ensure, among
other things, that: “there be no legal distinction
between same-sex married couples and oppositesex married couples with respect to marriage under the laws of this State by applying all provisions of law regarding marriage equally to samesex couples and opposite-sex couples regardless
of whether this Act does or does not amend any
particular provision of law[.]”

App. 92
85.

HRS § 572-1.8 provides:
Interpretation of terminology to
be gender-neutral. When necessary to implement the rights, benefits, protections, and responsibilities
of spouses under the laws of this
State, all gender-specific terminology,
such as “husband”, “wife”, “widow”,
“widower”, or similar terms, shall be
construed in a gender-neutral manner. This interpretation shall apply
to all sources of law, including statutes, administrative rules, court decisions, common law, or any other
source of law.

86.

The Child was born to Defendant on November
11, 2015.

87.

Defendant is the Child’s natural mother.

88.

HRS § 584-4(a) sets forth the circumstances under which “a man is presumed to be the natural
father of a child[.]”

89.

HRS § 584-4(a)(4) provides that a man is presumed to be the natural father of a child if
“[w]hile the child is under the age of majority, he
receives the child into his home and openly holds
out the child as his natural child[.]” This provision must be applied in a gender-neutral fashion,
as required by HRS § 584-21.

90.

On October 7, 2015, Petitioner filed her complaint
for divorce. Among other things, the complaint alleged that the parties had no children together;
that Defendant was pregnant, but that Petitioner

App. 93
was not the biological parent; and that there
should be no custody, visitation and child support
orders entered in the case.
91.

On October 7, 2015, Petitioner gave notice to Defendant to vacate the marital residence.

92.

Prior to the Child’s birth, the parties ceased cohabitating.

93.

On October 16, 2015, Defendant filed a Petition
for an Order for Protection against Petitioner
(FC-DA 15-1-2251). A temporary restraining order (TRO) prohibiting Petitioner from contact
with Defendant was entered October 16, 2015.
The TRO was dissolved after a hearing on October 28, 2015.

94.

Petitioner was not present at the Child’s birth.

95.

Since the Child’s birth, Petitioner has had no contact with the Child.

96.

The Child has never lived with the Petitioner.

97.

HRS § 584-4(a)(4) does not create a presumption
of a parent-child relationship between Petitioner
and Defendant, because Petitioner did receive
the Child into her home and hold out the Child
as her natural child.

98.

HRS §584-4(a)(1) provides:
[a] man is presumed to be the natural father of a child if:
(1) He and the child’s natural
mother are or have been married to
each other and the child is born

App. 94
during the marriage, or within three
hundred days after the marriage is
terminated by death, annulment,
declaration of invalidity, or divorce,
or after a decree of separation is entered by a court[.]
99.

HRS §584-4(a)(1) must be applied in a genderneutral fashion, as required by HRS § 584-21.

100. Petitioner and Defendant were legally married to
each other at the time the Child was born.
101. Accordingly, pursuant to HRS § 584-4(a)(1), there
is a presumption that Petitioner is a legal parent
of the Child. That is, there is a presumed legal
parent/child relationship between Petitioner and
the Child.
102. This presumption of legal parentage is rebuttable, pursuant to HRS § 584-4(b), which provides:
A presumption under this section
may be rebutted in an appropriate
action only by clear and convincing
evidence. If two or more presumptions arise which conflict with each
other, the presumption which on the
facts is founded on the weightier considerations of policy and logic controls. The presumption is rebutted by
a court decree establishing paternity
of the child by another man.
103. Petitioner bears the burden of proving by clear
and convincing evidence that the presumption of
legal parentage is rebutted.

App. 95
104. Although Petitioner has no biological relationship to the Child, that fact, in and of itself, is an
insufficient basis to rebut the presumption of a
parent-child relationship. See Inouye, 118 Hawai‘i 86 (even clear and convincing evidence that
the presumed father was not, in fact, the biological father was not enough to rebut the presumption of a parent/child relationship).
105. One of the main goals of the HRS chapter 584
is to ensure that “every child has a legal father.”
Doe v. Doe, 99 Hawaii at 8.
106. In the context of a child conceived through artificial insemination by donor during a marriage, the
presumption of legal parentage incorporates a rebuttable presumption of consent to the artificial
insemination. Only clear and convincing evidence
can rebut the presumption of consent and therefore legal parentage. See Laura WW. v. Peter WW.,
51 A.D.3d 211 (N.Y. 2008) (“Consistent with our
State’s strong presumption of legitimacy, as well
as the compelling public policy of protecting children conceived via [artificial insemination by donor], we follow the lead of other jurisdictions that
impose a rebuttable presumption of consent by
the husband of a woman who conceives by [artificial insemination by donor], shifting the burden
to the husband to rebut the presumption by clear
and convincing evidence.” (Citations omitted.);
see also Wendy G-M. v Erin G-M., 45 Misc. 3d 574
(Sup. Ct, Monroe County NY 2014), (“the marital
presumption of legitimacy created a presumption
of consent in the [artificial insemination by donor] context for this couple.”); In re Baby Doe, 291
SC 389, 391, 353 SE2d 877, 878 (1987) (affirming

App. 96
trial court’s determination that “there was a rebuttable presumption that any child conceived by
artificial insemination during the course of the
marriage has been conceived with the consent of
the husband.”); K.S. v. G.S., 182 N.J. Super. 102,
109-110, 440 A.2d 64 (1981) (“Public policy considerations seeking to prevent children born as a
result of [artificial insemination by donor] procedures from becoming public charges or being bastardized require that a presumption of consent
exist and that a strong burden be placed on one
seeking to rebut the presumption. [Citation omitted.]”).
107. In this case, Petitioner could rebut the presumption that she is the legal parent of the Child by
clear and convincing evidence that she did not
consent, either expressly or impliedly, to the Defendant undergoing the artificial insemination
(IUI) procedure that resulted in her pregnancy
and the birth of the Child.
108. Petitioner did not meet her burden of proving by
clear and convincing evidence that she did not
consent to Defendant undergoing the artificial insemination procedure that resulted in her pregnancy and the birth of the Child. Petitioner
therefore has failed to rebut the presumption under HRS § 584-4(a)(1) that she is a legal parent
of the Child.
109. Accordingly, the court finds and concludes that a
legal parent/child relationship exists between
Petitioner and the Child, i.e., that Petitioner is a

App. 97
legal parent of the Child, and therefore Petitioner’s request for an order that she be disestablished as a legal parent of the Child is denied.
Custody and Visitation
110. At the trial in this matter, Petitioner took the position that she did not wish to have any custody
of or visitation with the Child, even if she were
found to be the Child’s legal parent.
111. Since the Child’s birth, Petitioner has not had
any contact with the Child and has made no attempt to have any contact or visitation with the
Child.
112. Pursuant to HRS § 571-46(a)(1), the court must
award custody “to either parent or to both parents according to the best interests of the child,
and the court also may consider frequent, continuing, and meaningful contact of each parent with
the child unless the court finds that a parent is
unable to act in the best interest of the child[.]”
113. Taking into account all of the relevant facts and
circumstances, the court finds and concludes that
it is in the best interests of the Child that temporary sole legal custody of the Child be awarded to
Defendant.
114. Taking into account all of the relevant facts and
circumstances, the court finds and concludes that
it is in the best interests of the Child that temporary sole physical custody of the Child be
awarded to Defendant.

App. 98
115. Taking into account all of the relevant facts and
circumstances, the court finds and concludes that
it is in the best interests of the Child that Petitioner have no visitation with the Child until further order of the court or mutual agreement of
the parties.
Child Support
116. Parents have a legal duty to support their children financially. HRS § 577-7.
117. Petitioner’s gross monthly income is $8,850. Defendant’s gross monthly income is $6,390.
118. Defendant pays $700 per month for the Child to
attend day-care/pre-school so that Defendant can
maintain her employment.
119. Petitioner is obligated to pay Respondent the
sum of $1,317 in monthly child support, which
amount was determined by the child support
guidelines in effect at the time of trial and calculated pursuant to the child support guidelines
worksheet, which shall be filed concurrently with
this Decision and Order.
120. The court finds that child support shall commence on August 1, 2016.
121. Child support shall be paid to and through the
Child Support Enforcement Agency of the State
of Hawai‘i and pursuant to an order for income
withholding to be entered in FC-D No. 15-1-1327.

App. 99
Attorneys’ Fees and Costs
122. Each party shall bear her own attorneys’ fees and
costs.
DATED: Kapolei, Hawai‘i, November 1, 2016.
/s/ Matthew J. Viola
JUDGE OF THE ABOVEENTITLED COURT
Cc: Evans M. Smith, Esq.,
Christopher D. Thomas, Esq.

App. 100
[SEAL]
EXECUTIVE CHAMBERS
HONOLULU

DAVID Y. IGE
GOVERNOR

April 17, 2019 GOV. MSG. NO.
1113
The
Honorable Ronald D. Kouchi,
President
and Members of the Senate
Thirtieth State Legislature
State Capitol, Room 409
Honolulu, Hawaii 96813

The
Honorable Scott K. Saiki,
Speaker and Members
of the House of
Representatives
Thirtieth State Legislature
State Capitol, Room 431
Honolulu, Hawaii 96813

Dear President Kouchi, Speaker Saiki, and Members
of the Legislature:
This is to inform you that on April 17, 2019, the following bill was signed into law:
SB325 SD1

RELATING TO PARENTAGE
ACT 012 (19)
Sincerely,
/s/ David Y. Ige
DAVID Y. IGE
Governor, State of Hawai’i

App. 101
ACT 012
S.B. NO. 325
S.D. 1
A BILL FOR AN ACT
RELATING TO PARENTAGE.
BE IT ENACTED BY THE LEGISLATURE OF
THE STATE OF HAWAII:
SECTION 1. The legislature finds that the Hawaii
supreme court’s majority opinion in LC v. MG and Child
Support Enforcement Agency, No. SCAP-16-0000837
(HAW. Oct. 4, 2018) held, in part, that the Hawaii Uniform Parentage Act, chapter 584, Hawaii Revised Statutes, precludes a spouse from rebutting the marital
presumption of parentage with evidence that demonstrates a clear and convincing lack of consent to the
other spouse’s artificial insemination procedure. The
legislature also finds that the court’s majority based
this holding on speculation regarding the legislature’s
intent in removing a provision relating to artificial insemination when it adopted the Uniform Parentage
Act in 1973. The provision at issue specifically identified a husband’s written consent to his wife’s artificial
insemination procedure as evidence relating to paternity. The legislature finds that the court’s majority
overreached in its conclusion that the legislature’s removal of this provision in its initial adoption of the
Uniform Parentage Act indicates express legislative
intent to preclude any evidence of non-consent to an

App. 102
artificial insemination procedure as a rebuttal to the
presumption of parentage.
The purpose of this Act is to clarify that evidence
of an alleged parent’s non-consent to an artificial insemination procedure that resulted in the birth of a
child may be considered as evidence relating to paternity in an action regarding the parentage of that child.
SECTION 2. Section 584-12, Hawaii Revised Statutes, is amended to read as follows:
“§584-12 Evidence relating to paternity. Evidence relating to paternity may include:
(1) Evidence of sexual intercourse between the
mother and the alleged father at any possible
time of conception;
(2) An expert’s opinion concerning the statistical
probability of the alleged father’s paternity
based upon the duration of the mother’s pregnancy;
(3) Genetic test results, including blood test results, weighted in accordance with evidence, if
available, of the statistical probability of the
alleged father’s paternity;
(4) Medical or anthropological evidence relating
to the alleged father’s paternity of the child
based on tests performed by experts. If a man
has been identified as a possible father of the
child, the court may, and upon request of a
party shall, require the child, the mother, and
the man to submit to appropriate tests;

App. 103
(5) A voluntary, written acknowledgment of paternity;
(6) Bills for pregnancy and childbirth, including
medical insurance premiums covering this period and genetic testing, without the need for
foundation testimony or other proof of authenticity or accuracy, and these bills shall
constitute prima facie evidence of amounts incurred for such services or for testing on behalf of the child; [and]
(7) Evidence of consent to an artificial insemination procedure that resulted in the birth of the
child; and
[(7)] (8) All other evidence relevant to the issue of
paternity of the child.”
SECTION 3. This Act does not affect rights and
duties that matured, penalties that were incurred, and
proceedings that were begun before its effective date.
SECTION 4. Statutory material to be repealed is
bracketed and stricken. New statutory material is underscored.
SECTION 5. This Act shall take effect upon its approval.
APPROVED this 17 day of APR

, 2019

/s/ David Y. Ige
GOVERNOR OF THE STATE OF HAWAII

App. 104
S.B. No. 325, S.D. 1
THE SENATE OF THE STATE OF HAWAI‘I
Date: March 5, 2019
Honolulu, Hawaii 96813
We hereby certify that the foregoing Bill this day
passed Third Reading in the Senate of the Thirtieth Legislature of the State of Hawaii, Regular Session of 2019.
/s/ [Signature]
President of the Senate
/s/ [Signature]
Clerk of the Senate

THE HOUSE OF REPRESENTATIVES
OF THE STATE OF HAWAII
Date: March 29, 2019
Honolulu, Hawaii 96813
We hereby certify that the foregoing Bill this day
passed Third Reading in the House of Representatives
of the Thirtieth Legislature of the State of Hawaii,
Regular Session of 2019.
/s/ [Signature]
Speaker,
House of Representatives
/s/ [Signature]
Clerk,
House of Representatives

App. 105
Hawaii Revised Statutes § 584-4. Presumption
of paternity.
(a)A man is presumed to be the natural father of a
child if:
(1)He and the child’s natural mother are or have
been married to each other and the child is born
during the marriage, or within three hundred days
after the marriage is terminated by death, annulment, declaration of invalidity, or divorce, or after
a decree of separation is entered by a court;
(2)Before the child’s birth, he and the child’s natural mother have attempted to marry each other
by a marriage solemnized in apparent compliance
with law, although the attempted marriage is or
could be declared invalid, and:
(A)If the attempted marriage could be declared invalid only by a court, the child is born
during the attempted marriage, or within
three hundred days after its termination by
death, annulment, declaration of invalidity, or
divorce; or
(B)If the attempted marriage is invalid without a court order, the child is born within
three hundred days after the termination of
cohabitation;
(3)After the child’s birth, he and the child’s natural mother have married, or attempted to marry,
each other by a marriage solemnized in apparent
compliance with law, although the attempted marriage is or could be declared invalid, and:

App. 106
(A)He has acknowledged his paternity of the
child in writing filed with the department of
health;
(B)With his consent, he is named as the
child’s father on the child’s birth certificate; or
(C)He is obligated to support the child under
a written voluntary promise or by court order;
(4)While the child is under the age of majority, he
receives the child into his home and openly holds
out the child as his natural child;
(5)Pursuant to section 584-11, he submits to court
ordered genetic testing and the results, as stated
in a report prepared by the testing laboratory, do
not exclude the possibility of his paternity of the
child; provided the testing used has a power of exclusion greater than 99.0 per cent and a minimum
combined paternity index of five hundred to one;
or
(6)A voluntary, written acknowledgment of paternity of the child signed by him under oath is filed
with the department of health. The department of
health shall prepare a new certificate of birth for
the child in accordance with section 338-21. The
voluntary acknowledgment of paternity by the
presumed father filed with the department of
health pursuant to this paragraph shall be the basis for establishing and enforcing a support obligation through a judicial proceeding.
(b)A presumption under this section may be rebutted
in an appropriate action only by clear and convincing
evidence. If two or more presumptions arise which

App. 107
conflict with each other, the presumption which on the
facts is founded on the weightier considerations of policy and logic controls. The presumption is rebutted by
a court decree establishing paternity of the child by another man.

